<html>
<title> - INDIAN EDUCATION SERIES: EXAMINING HIGHER EDUCATION FOR AMERICAN INDIAN STUDENTS</title>
<body><pre>[Senate Hearing 113-486]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 113-486
 

INDIAN EDUCATION SERIES: EXAMINING HIGHER EDUCATION FOR AMERICAN INDIAN
                                STUDENTS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 11, 2014

                               __________

         Printed for the use of the Committee on Indian Affairs


         		U.S. GOVERNMENT PRINTING OFFICE

 91-487 PDF                       WASHINGTON : 2014
 -----------------------------------------------------------------------
 For sale by the Superintendent of Documents, U.S. Government Printing
 Office, Internet: bookstore.gpo.gov. Phone: toll free (866) 512-1800;
     DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC,
                       Washington, DC 20402-0001


                      COMMITTEE ON INDIAN AFFAIRS

                     JON TESTER, Montana, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
TIM JOHNSON, South Dakota            JOHN McCAIN, Arizona
MARIA CANTWELL, Washington           LISA MURKOWSKI, Alaska
TOM UDALL, New Mexico                JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                MIKE CRAPO, Idaho
MARK BEGICH, Alaska                  DEB FISCHER, Nebraska
BRIAN SCHATZ, Hawaii
HEIDI HEITKAMP, North Dakota
        Mary J. Pavel, Majority Staff Director and Chief Counsel
              Rhonda Harjo, Minority Deputy Chief Counsel


                            C O N T E N T S

                              ----------
                                                                   Page
Hearing held on June 11, 2014....................................     1
Statement of Senator Barrasso....................................     2
Statement of Senator Franken.....................................    14
Statement of Senator Heitkamp....................................    19
Statement of Senator Johnson.....................................     4
Statement of Senator Murkowski...................................     4
Statement of Senator Tester......................................     1
Statement of Senator Udall.......................................     2

                               Witnesses

Crazy Bull, Cheryl, President/CEO, American Indian College Fund..    28
    Prepared statement...........................................    29
Kipp, Billie Jo, President, Blackfeet Community College..........    21
    Prepared statement...........................................    23
Monette, Melvin, Director of Graduate Fellowships, American
  Indian Graduate Center.........................................    37
    Prepared statement...........................................    38
Purce, Thomas ``Les'', President, Evergreen State College........    33
    Prepared statement...........................................    34
Studley, Jamienne, Deputy Under Secretary, U.S. Department of
  Education......................................................     5
    Prepared statement...........................................     7

                                Appendix

George, Maggie L. Ph.D., President of Dine College, prepared
  statement......................................................    48
National Indian Education Association (NIEA), prepared statement.    45
Response to written questions submitted by Hon. Jon Tester to
  Jamienne Studley...............................................    60
Response to written questions submitted by Hon. Tom Udall to:
    Cheryl Crazy Bull............................................    55
    Billie Jo Kipp...............................................    64
    Thomas ``Les'' Purce.........................................    57
    Jamienne Studley.............................................    63
Short Bull Gerth, Lisa, Graduate Student, Montana State
  University, prepared statement.................................    52

 
   INDIAN EDUCATION SERIES: EXAMINING HIGHER EDUCATION FOR AMERICAN
                            INDIAN STUDENTS

                              ----------


                        WEDNESDAY, JUNE 11, 2014


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room
628, Dirksen Senate Office Building, Hon. Jon Tester,
Chairman of the Committee, presiding.

             OPENING STATEMENT OF HON. JON TESTER,
                   U.S. SENATOR FROM MONTANA

    The Chairman. I will call the Committee to order.
    The purpose of this oversight hearing today on Indian
higher education is to receive testimony that will help us
evaluate Federal programs for Native college students and
identify what legislative or administrative changes are needed.
This hearing is timely as the Senate is considering legislation
on student loan repayment.
    There is no doubt that Indian higher education has come a
long way over the past 30 years. Native enrollment in colleges
and universities has more than doubled, and so has the number
of degrees earned. However, American Indians are still less
likely to attend a four-year institution than other U.S. ethnic
groups. Native graduation and persistent rates are also
disproportionately low.
    Our dialogue today builds on the three hearings the
Committee has held this year on Indian Education. And as many
of you know, a major challenge with Indian higher education has
to do with pre-college factors. We are not just talking about
low scores on college admissions tests or low completion of
high school course requirements. The fact is that we are losing
a good portion of Indian students before they graduate from
high school. And that has to do with a lack of qualified Native
educators, lack of culturally-relevant curriculum, poverty,
family challenges. These are all issues the Committee will be
looking at in coming weeks and months as we identify a path
forward. Because it is my belief that all Native children
should have the option of going to college. It is clearly not
the case right now.
    Today we will look superficially at what kind of support
Native college students are receiving and what improvements
need to be made. First, we will hear from the Department of
Education, which is responsible for providing grants to Native-
serving post-secondary institutions. Many of those are non-
tribal institutions which are attended by about 90 percent of
the American Indian students.
    The Department is also responsible for carrying out the
President's executive order on strengthening tribal colleges
and universities.
    We will receive testimony from others, including Evergreen
State College, which Senator Cantwell talked about a moment
ago. We will also hear from the American Indian College Fund
and the American Indian Graduate Center. I would like to extend
a special welcome to Billie Jo Kipp, who is President of the
Blackfeet Community College up in Blackfeet Country, which is
one of the seven tribal colleges from my home State of Montana.
    Across this Country, there are about 37 tribal colleges and
universities serving about 30,000 Native students. I have long
believed that tribal colleges are integral and essential to the
communities. They prepare students to succeed in a wide range
of careers. They provide access to higher education for many
people in remote locations who otherwise would not be able to
afford to attend college.
    So I am looking forward to hearing recommendations for ways
that we can help them continue to do great work and improve
upon that work. With that, I want to thank our witnesses for
joining us today and turn it over to Senator Barrasso for his
opening statement.

               STATEMENT OF HON. JOHN BARRASSO,
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you, Mr. Chairman, for holding this
hearing. I appreciate all the comments you made. We need to
examine today higher education for Indian students. Education
is a significant pathway to success. For many Indian students,
the opportunities may be few, the challenges may be many.
According to the Department of Education, fewer than 13 percent
of American Indian and Alaska Natives earned a college degree
compared to 28 percent of other populations. The 13 percent
figure needs to change, so I will look forward to hearing from
our witnesses on improving higher education opportunities.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Barrasso.
    Do any of the other members have opening statements?
    Senator Udall. I have a short opening statement.
    The Chairman. Senator Udall.

                 STATEMENT OF HON. TOM UDALL,
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Tester.
    And Chairman Tester, I want to thank you for these
important hearings on Indian education. I think this is a very
important discussion to have. We clearly have a trust
responsibility to support opportunities for Native Americans
and Alaska Natives.
    Education, it seems to me, is the key for tribal
leadership, for healthy communities and for economic
prosperity. We need to do all we can for strong tribal schools
and for Indian students to move forward into college and the
graduate level and in public and private schools. Higher
education is one of the best investments we can make as a
Nation in our future and also an investment by students and
their families. This is really a commitment of time, of hard
work and money.
    We know the challenges. Half of Indian students drop out of
high school. Today's hearing will focus on higher education.
But I am glad the Committee, under the Chairman's leadership,
is looking across the educational spectrum to increase success
for students at all levels. TCUs are chronically underfunded,
but they are rising to the challenge by increasing the number
and type of degrees they offer by developing more programs to
prepare Native American students to be teachers, health care
providers, engineers and business leaders. They are doing all
they can and we need to do all we can to help them.
    I have introduced the BUILD Act, a bill to improve tribal
education, including reauthorization of the Esther Martinez
Act, strengthening language and culturally-based learning and
better funding for tribal schools. I have also supported
legislation introduced by Senator Tester and I am pleased to
work together to make these bills as strong as possible.
    Resources are scarce and needs are great. Higher education
should offer the best value, the best opportunity and the best
investments, so that all our students, Indian and non-Indian,
can take full advantage of that, so that it is truly a ladder
up for economic development, for jobs and career opportunities
and with and for tribal communities.
    I would also like to welcome Mr. Melvin Monette from New
Mexico. I see Melvin out there in the audience. I know he is on
the second panel. Mr. Monette is a member of the Turtle
Mountain Band of Chippewa Indians. He directs the graduate
fellowship and special programs at the American Indian Graduate
Center in Albuquerque, New Mexico. Mr. Monette is a strong
advocate in finding and networking resources for American
Indian and Alaska Native students and families in higher
education. He serves on the board of the National Indian
Education Association and founded the National Coalition of
Advancement of Natives in Higher Education. He has also served
as an ambassador of the Gates Millennium Scholars program and
lead trainer. Mr. Monette has a B.S. in elementary education
and an M.S. in educational leadership from the University of
North Dakota.
    I would like to say a word about the American Indian
Graduate Center. Not everyone may know about this great
organization. AIGC is the oldest and largest provider of
graduate and professional student scholarship services in the
United States. The AIGC also administers the Gates Millennium
Scholar Program for American Indians and Alaska Natives.
    We talk about the importance of developing capacity for
leadership in governance, both for tribes and others. This is
the core value of the AIGC, and they are doing great work.
    Welcome, Mr. Monette, and thank you and all the panelists
for coming today. I have other pressing business, so I am going
to try to be back here for as much testimony as possible. But I
really thank you, Chairman Tester, and Vice Chairman Barrasso,
for pushing out on higher education.
    The Chairman. Thank you, Senator Udall.
    Senator Murkowski?

               STATEMENT OF HON. LISA MURKOWSKI,
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    Just very briefly, Senator Heitkamp and I are working to
advance the proposition of the Native Children's Commission
focused on those factors that are holding back our Native
American and Alaska Native children. When I think about the
successes that I see in my State with Alaska Native children
and how they have moved on, going beyond the multitude of risk
factors that face them, I can cite almost exclusively to the
education opportunities that have been made available to them.
    In the past 40 some odd years, we have seen a real
transition in Alaska, as the strength of our Native
corporations has come on and as students have opportunities
presented to them for scholarships to attend college. As we all
know, the daunting cost of a college education can be something
that for many children, and most particularly minorities and
our Native American kids and our Alaska Native kids, college
was just not something that they could even consider because of
the costs associated. So what we are seeing is truly a new
generation, a young generation of young people that are coming
back to the State, having been educated outside or attending
the institutions within the State of Alaska, whether it is the
University of Alaska system, whether it is Ilisagvik College up
in Barrow.
    But having the opportunity for an even footing, because
they now have the ability to afford that higher education. We
are seeing the difference in our young Native leadership. It is
transformative. So when I think about the ways that we can
bring our kids out, leave those risk factors as much as
possible behind, it is going to be through education. So I
appreciate the focus that you are giving this today, Mr.
Chairman.
    The Chairman. Thank you, Senator Murkowski.
    Senator Johnson?

                STATEMENT OF HON. TIM JOHNSON,
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Thank you, Chairman Tester, for holding
this important hearing to examine higher education for Native
American students. I would like to give a very warm welcome to
a fellow South Dakotan, Cheryl Crazy Bull, President of the
American Indian College Fund. Your hard work, Cheryl, for
Native American students has been outstanding throughout the
years, and I thank you for sharing your testimony with us
today.
    All too often, the Federal Government comes up short in
meetings its treaty responsibilities to provide Native
education. Our education for Native Americans must be available
to those who are qualified to attend, not just those who can
afford to attend. Statistics have shown that there is a grave
disparity between Native and non-Native students. Native
students are more likely to be first generation students and
are less likely to graduate. We must increase our support of
Native American students in their endeavors to achieve the next
level of education for those investing in their own futures and
for those investing in the prosperity of their tribes.
    I hope that today's hearing will find solutions to ensure
that Native students are being provided with the additional
support to pursue higher education. I look forward to the
testimony today. Thank you again, Mr. Chairman, for holding
this hearing.
    The Chairman. Thank you, Senator Johnson. I would now like
to welcome our first panel, which consists of Jamienne Studley.
Jamienne is the Deputy Under Secretary of the Department of
Education. It is good to have you here. We will try to hold you
to five minutes on your verbal testimony. Your entire written
testimony will be a part of the record.
    Thanks for being here.

  STATEMENT OF JAMIENNE STUDLEY, DEPUTY UNDER SECRETARY, U.S.
                    DEPARTMENT OF EDUCATION

    Ms. Studley. Thank you very much and good afternoon,
Chairman Tester, Senator Barrasso and Committee members. My
name is Jamienne Studley and I am Deputy Under Secretary at the
U.S. Department of Education.
    I appreciate the opportunity to testify today about the
Administration's work to expand education opportunities and to
approve outcomes for American Indian and Alaska Native students
in higher education. This is an important issue for the Nation
and for this Administration and we welcome your attention.
    Indeed, the President will make his second trip to Indian
country this Friday, visiting the Standing Rock Sioux Tribe in
North Dakota to announce additional steps to support education
and employment. As you know, the President established the
White House Initiative on American Indian and Alaska Native
Education, which is housed in the Department of Education's
Office of the Under Secretary. Among its functions are
enhancing opportunities for AI/AN students to learn their
Native languages, cultures, histories and to help students
prepare for college and careers, just along the lines you have
all mentioned.
    With respect to post-secondary education, the Initiative
promotes education reforms that have shown success at enabling
AI/AN students to acquire a rigorous and well-rounded
education, to increase their access to support services, to
reduce dropout rates and to increase college completion and
access by strengthening the capacity of post-secondary
institutions , including tribal colleges and universities.
    So how well are AI/AN students doing in high school to
become prepared for college? According to the Census Bureau's
American Community Survey, AI/AN students dropped out of high
school at more than twice the rate for White students in 2011.
We know that AI/AN students tend to have less access to
rigorous course work in high school, compared to other racial
and ethnic groups. That is not their fault. That is the
situation that we collectively have offered them.
    What about outcomes for those beyond high school? According
to 2013 Census Bureau data, 60 percent of Asians and 40 percent
of White 25 to 29 year olds hold baccalaureate degrees,
compared with just 17 percent of AI/AN young adults. To
accomplish the President's goal to be first in the world in
college graduation, we estimate that we need an additional
112,000 AI/AN students to complete college by 2020, and we need
to help them.
    Some of the Department's programs specifically serve AI/AN
students. The Tribally Controlled Colleges and Universities
Program provides $53 million in funding to support 68 projects
across 13 states, serving 19,000 students, with funds
supporting academic and faculty development, teacher
preparation, outreach and counseling services and facilities
improvements.
    The Strengthening Alaska Native and Native Hawaiian-serving
Institutions program also provides grants, in this case to
eligible institutions of higher education, to enable them to
enhance their ability to serve these populations. In fiscal
year 2014, $26.5 million will support 30 grants and 14 new
awards.
    It is important to note that about 90 percent of AI/AN
post-secondary students attend institutions of higher education
that are not tribally controlled. These include Native
American-serving non-tribal institutions, to which Congress
provided $7.8 million in fiscal year 2014, through a program
that will support 19 grants, each averaging about $400,000.
    We also have a special program for tribally-controlled
post-secondary career and technical institutions that supports
the Navajo Technical University in New Mexico and United Tribes
Technical College in North Dakota. These institutions are
eligible for a share of almost $8 million.
    I have invested a good part of my career advocating and
working for individuals to help increase their access to
education, to ensure that they can succeed. What truly makes a
difference is the ability to pursue higher education. College
has long represented the surest route to opportunity. But high
costs stymie many students. And we know that nearly half of all
students who begin college will never finish.
    I am particularly proud of the work this Administration is
doing to make college more affordable, accessible, performance-
oriented and centered on better informed student decisions. We
want to make clear, transparent information on college
performance readily available through tools like the College
Scorecard and Financial Aid Shopping Sheet.
    We fought for higher Pell Grant funding and increased the
Pell maximum award by more than $900 to a total of $5,730,
providing grants to an additional 3 million students. The
number of AI/AN students receiving Pell grants increased from
about 63,000 in 2008-2009 to more than 112,000 in 2011-2012.
And we are helping more borrowers manage their debt through the
Pay As You Earn proposal that caps student loan payments at 10
percent of monthly income.
    We appreciate your support for the First In The World Fund
in this fiscal year, 2014. And we have done a great deal of
outreach to tribal colleges and other minority-serving
institutions to encourage their applications in this first
round, which includes a setaside of up to $20 million for
minority-serving institutions in total.
    In the fiscal year 2015 budget, we have requested a number
of initiatives to help tribal colleges, Native-serving
institutions and others receive support through the College
Success Grants for Minority-Serving Institutions and the
College Opportunity and Graduation bonus program. With higher
education more important than ever for our shared future, we
must continue to improve college completion for the AI/AN
community. As Secretary Duncan said in his commencement remarks
just this weekend at Salish-Kootenai College in Montana, this
is essential for maximizing individual opportunity, community
leadership and national economic prosperity.
    We thank you for holding this hearing. I have read the
other witnesses' prepared remarks that were available in
advance and I will stay as long as I can to hear them. I would
be happy to answer any questions.
    [The prepared statement of Ms. Studley follows:]

 Prepared Statement of Jamienne Studley, Deputy Under Secretary, U.S.
                        Department of Education
    Good afternoon Chairman Tester, Senator Barrasso, and Committee
members. My name is Jamienne Studley and I am the Deputy Under
Secretary at the U.S. Department of Education (ED). The Under
Secretary's office coordinates policies and programs related to
postsecondary education, career and technical education, adult
education, and federal student aid, as well as the six White House
Initiatives, including the White House Initiative on American Indian
and Alaska Native Education (WHIAIANE or ``Initiative''). I appreciate
the opportunity to testify today about the work the Administration is
doing to expand educational opportunities and improve outcomes for
American Indian and Alaska Native (AI/AN) students in higher education.
Increasing Partnerships with Tribes, States, and the Private Sector to
        Improve Native Student Achievement
    This Administration has taken important steps to support tribal
self-determination and to strengthen and honor the Federal Government's
government-to-government relationship with tribal nations. To reaffirm
these commitments, the President issued Executive Order 13592 on
December 2, 2011, which established the WHIAIANE. The mission of the
Initiative is to expand educational opportunities and improve
educational outcomes for AI/AN students. This includes enhancing
opportunities for AI/AN students to learn their Native languages,
cultures, and histories, and to receive an education that prepares them
for college, careers, and tribal citizenship and leadership.
    The Initiative works with tribes, Federal agencies, states, and the
private sector to advance these goals. With respect to postsecondary
education, the Initiative works to:

  <bullet> Help ensure that schools meet the unique cultural,
        educational, and language needs of AI/AN students;

  <bullet> Implement and expand evidence-based strategies that provide
        AI/AN students with a rigorous and well-rounded education;

  <bullet> Increase access to support services that prepare AI/AN
        students for college, careers, and civic involvement;

  <bullet> Reduce student dropout rates and help more AI/AN students
        complete high school prepared for college and careers; and

  <bullet> Increase college access and completion by strengthening the
        capacity of postsecondary institutions, including tribal
        colleges and universities (TCUs).

American Indian/Alaska Native Students and Higher Education
    Data from the National Center for Education Statistics (NCES)
indicate that AI/AN students are less prepared than other subgroups for
college and careers. According to American Community Survey, AI/AN
students dropped out of high school at more than twice the rate for
white students in 2011; in fact, among 16- to 24-year-olds born in the
United States, AI/AN youth had the highest dropout rate of any racial/
ethnic group. \1\
---------------------------------------------------------------------------
    \1\ http://nces.ed.gov/programs/digest/d13/tables/dt13--219.80.asp
---------------------------------------------------------------------------
    Furthermore, NCES Common Core Data indicates that, while the
average public high school graduation rate for all students has
increased six points, from approximately 75 percent in 2007-2008 to 81
percent in 2011-2012, the high school graduation rate for AI/AN
students over the same period increased by only four points, from 64 to
68 percent.
    Additionally, according to ED's Civil Rights Data College (CRDC),
AI/AN students have less access to rigorous mathematics and science
coursework in high school compared to other race/ethnicity groups. In
2011-2012, only 47 percent of AI/AN students attended public high
schools where the full range of mathematics and science courses were
offered. In contrast, the percentage of the other race/ethnicity groups
that had access to the full range of mathematics and science courses
ranged from 57 percent to 81 percent.
    Also, based on the CRDC, in 2011-2012, AI/AN students represented 1
percent of high school students and 1 percent of students enrolled in
an AP course and taking an AP exam, but only 0.5 percent of students
receiving a qualifying score of 3 or above on an AP exam. In contrast,
white and Asian students combined represented 59 percent of high school
enrollment, but 69 percent of students taking AP courses, 72 percent of
students taking AP exams, and 80 percent of students receiving a
qualifying score on an AP exam.
    And on nationally representative achievement tests, the gaps
separating AI/AN students from non-AI/AN students have not closed and,
disappointingly, have mostly widened between 2005 and 2011.
    Beyond high school, AI/AN young adults also lag behind their white
peers in educational attainment. According to 2013 Census Bureau data,
60 percent of Asian and 40 percent of White 25- to 29-year-olds held
baccalaureate degrees, compared with just 17 percent of AI/AN young
adults. \2\ Across all degree-granting institutions, AI/AN enrollment
increased from 76,000 to 196,000 students from 1976 to 2010; however,
AI/AN enrollment dropped to 173,000 by 2012. These students accounted
for only 1 percent of the total enrollment during those years.
---------------------------------------------------------------------------
    \2\ This same data show a similar lag for African American (20
percent) and Hispanic (16 percent) young adults.
---------------------------------------------------------------------------
    AI/AN students did earn nearly twice as many bachelor's degrees in
2012 as in 2002, and nearly three times as many master's degrees. At
the doctoral level, according to the National Science Foundation's
Survey of Earned Doctorates, AI/AN students represented 1.2 percent of
the U.S. population in 2012 but earned just 0.3 percent of the
doctorates awarded. They are the only minority group that did not
increase their share of doctorates earned over the past two decades.
    These statistics make it clear that more must be done to expand and
improve educational opportunities and outcomes for AI/AN students.
ED Programs that Support AI/AN Students
    The Administration is working with institutions of higher
education, both tribally controlled and non-tribally controlled, to
meet President Obama's goal to be first in the world in college
graduation rates by 2020.
Tribally Controlled Colleges and Universities Program
    There are currently 34 tribally controlled colleges and
universities (TCUs) that serve approximately 19,000 students. These
institutions fulfill a unique role in AI/AN communities by providing a
quality academic experience while also protecting and teaching tribal
cultures, histories, and languages. By combining personal attention
with cultural relevance, TCUs have become increasingly important in
helping ensure educational access and achievement for AI/AN students,
especially for those living on or near reservations.
    The President's fiscal year 2015 budget request would provide a
total of $53 million for the Title III Strengthening Tribally
Controlled Colleges and Universities program--$25.2 million in
discretionary funding and $27.8 million in mandatory funding. This
funding, authorized under the Higher Education Act of 1965, as amended
(HEA), would provide $53 million in funding to support 68 projects
across 13 states.
    Historically, the TCUs program has had a significant impact on
several schools. For example, at Chief Dull Knife College, located on
the Northern Cheyenne Reservation in southeastern Montana, the
programmatic funding has allowed the college to provide professional
development opportunities for its faculty and staff and has a 100
percent faculty retention rate over the past three years. From 2008-
2012, placement of students in higher-level math classes increased by
more than 20 percent, and the completion rate for developmental skill
classes increased to 70 percent. The college, like many tribal
colleges, has also implemented Native language activities as part of
the curriculum. Cheyenne language courses are being offered in a four-
course series, and the college also provides summer Cheyenne-language
immersion experiences for youth in the surrounding communities.
    And Aaniiih Nakoda College, located on the Fort Belknap Reservation
in Harlem, Montana, has used HEA Title III grant funds to develop a new
campus-wide retention plan. Student retention rates have increased by
more than 10 percent reaching a record high 65 percent for the fall
2012 first-time, full-time student cohort.
Strengthening Alaska Native and Native Hawaiian-Serving Institutions
        Program
    The Strengthening Alaska Native and Native Hawaiian-serving
Institutions (ANNH) program, also authorized under Title III of the
HEA, provides grants to eligible institutions of higher education to
enable them to improve and expand their capacity to serve Alaska
Natives and Native Hawaiians. Institutions may use these grants to
plan, develop, or implement activities that promise to strengthen the
institution.
    In fiscal year 2014, $12.6 million in discretionary funding and
$13.9 million in mandatory funding will support a total of 30 grants to
ANNH institutions, including 14 new awards expected to be made in
fiscal year 2014. The fiscal year 2015 budget request is the same as
the 2014 level.
    For example, at the University of Alaska, Fairbanks--Northwest, the
ANNH grant has allowed the university to have a well-connected student
support services team that has expanded their presence in the
communities in which it serves. Additionally, the university is setting
up locally relevant sequenced courses that lead to defined outcomes,
which are created with the participation and support of each of the
communities and its members. Finally, the school has created a master
plan for its facilities that will guide maintenance and renovation
goals, future planning considerations, and make the campus more
cohesive and energy efficient.
Native American-Serving Nontribal Institutions
    90 percent of AI/AN postsecondary students attend institutions of
higher education that are not tribally controlled. These include Native
American-Serving Nontribal Institutions (NASNTIs), in which the student
body must be at least 10 percent Native American. The NASNTI program,
also authorized under Title III of the HEA, provides grants and
assistance to enable these institutions to improve and expand their
capacity to serve AI/ANs and low-income individuals by engaging in such
activities as:

  <bullet> Expanding dual enrollment opportunities;

  <bullet> Developing adult education to increase the number of AI/AN
        students who obtain high school diplomas;

  <bullet> Improving academic and student services to support student
        success and retention;

  <bullet> Improving the effective use of technology in academic
        environments; and

  <bullet> Increasing the number of AI/AN students who pursue advanced
        degrees.

    In fiscal year 2014, Congress appropriated $3.1 million in
discretionary funding and $4.7 million in mandatory funding for this
program. These funds will support 19 continuation grants each averaging
approximately $400,000. The President has requested similar funds for
fiscal year 2015.
    For example, Northeastern Oklahoma A&M College has used its NASNTI
grant to introduce the ``Native Ways of Knowing'' pedagogy into three
specific degree programs and to develop those programs for online
delivery. Ninety-nine percent of students receiving support services
related to the curriculum identified those services as ``helpful or
very helpful.'' And over 55 percent of the AI/AN low-income students
earned a 2.0 GPA or better.
    Another example is Fort Lewis College in Durango, Colorado, which
educates AI/AN students tuition-free. With students from 120 different
tribes, Native Americans make up close to 30 percent of the student
population. To address the difficulty many students experience when
transitioning from high school to college, Fort Lewis has used its
NASNTI grant to add a specialized learning community for incoming
freshmen that provides peer and elder mentoring and tutoring, and
creates a supportive community for the students. This type of intensive
programming has effectively used the grant to improve Native student
retention. The grant has also enabled Fort Lewis to enhance its STEM
program. Its newly accredited engineering program has resulted in AI/AN
enrollment surges.
    Together, TCUs and NASNTIs have far-reaching impacts in the
communities they serve. These institutions provide effective paths to
academic achievement and degree completion for AI/AN students. These
institutions also often serve as powerful engines of economic
development, contributing to employment, raising incomes, and directly
and indirectly supporting other forms of economic growth within tribal
communities. Because many of these colleges are in rural and
underserved communities, this contribution is especially important.
Tribally Controlled Postsecondary Career and Technical Institutions
        Program
    The Tribally Controlled Postsecondary Career and Technical
Institutions Program (TCPCTIP), authorized under Section 117(c) of the
Carl D. Perkins Career and Technical Education Act, provides funds to
eligible institutions for expenses that are associated with capital
expenditures, maintenance and operation of programs, expansion and
improvement of educational offerings and student support services,
including tuition, books, childcare, job placement counseling,
transportation, and specialized tools and uniforms that are required
for students to fully participate in career-technical education
programs.
    Any tribally controlled postsecondary career and technical
institution that does not receive Federal support under the Tribally
Controlled College or University Assistance Act of 1978 or the Navajo
Community College Act is eligible to apply. Currently, ED supports two
institutions under the program, Navajo Technical University in New
Mexico and United Tribes Technical College in North Dakota. These two
schools would each be eligible for a share of the $7.7 million in
proposed FY 15 funding. If their budget requests exceed the total
appropriation, ED is required to apply a specific statutory method for
calculating annual allocations that is based, in part, on student
counts.
Federal TRIO Program
    In fiscal year 2013, ED awarded a total of $4.6 million to support
18 Federal TRIO Program (TRIO) projects, authorized under Title IV of
the HEA, at Tribally Controlled Colleges and Universities to serve
3,637 AI/AN students. TRIO is a collection of programs that provide
outreach and support to help low-income and first generation college
students, as well as students with disabilities, progress through the
academic pipeline from middle school to post baccalaureate programs.
These 18 projects support activities under the Student Support Services
Program ($3.4 million to fund 14 projects); the Talent Search Program
($518,652 to fund two projects); and the Upward Bound Program ($649,900
to fund two projects). In addition, a total of $815,657 was awarded to
support three TRIO projects at Tribal Agencies to serve 1,813 students.
These three projects support activities under the Talent Search
Program. In fiscal year 2014, TRIO grantees that demonstrate
substantial progress in achieving the goals of their project are
expected to receive continuation awards.
New Budget Proposals to Expand Access and Completion
    The Federal Government's special responsibility to tribes obligates
it to help improve AI/AN postsecondary educational attainment. Higher
education has long represented the surest route to the middle-class,
but high costs are pricing out many students, and we know that nearly
half of all students who begin college never finish.
    The 2015 budget request for higher education programs supports the
President's 2020 college attainment goal and includes a number of new
initiatives to improve affordability, quality, and success in
postsecondary education, for which TCUs would be eligible to apply.
These include:

  <bullet> $75 million for a First in the World fund that would make
        competitive awards to institutions of higher education to
        encourage innovative approaches to improve college attainment
        and make higher education more affordable;

  <bullet> $75 million for College Success Grants for Minority-Serving
        Institutions (including NASNTIs) and Historically Black
        Colleges and Universities that would be made available through
        competitive grants to support implementation of sustainable
        strategies for reducing costs and improving outcomes for
        students; and

  <bullet> $647 million in mandatory funding for the College
        Opportunity and Graduation Bonus program that would reward
        colleges that successfully enroll and graduate a significant
        number of low- and moderate-income students on time and to
        encourage all institutions to improve performance.

    TCUs are eligible for funds in States that would get grants under
the Administration's proposed $4 billion State Higher Education
Performance Fund to support, reform, and improve the performance of
their public higher education systems.
    In addition, the Administration has taken a number of steps to
address the challenge of keeping college affordable and accessible for
all students, including AI/AN students. These efforts include:

  <bullet> Since taking office, President Obama has fought for higher
        Pell Grant funding, and, with the help of Congress has
        increased the Pell maximum award to $5,730 and provided grants
        to an additional 3 million students. Under current projections,
        the 2015 level would support Pell Grant awards to 8.9 million
        students. Pell Grants are the largest source of grant aid, with
        approximately 41 percent of all undergraduates receiving a Pell
        Grant.

  <bullet> The Administration has also sought ways to help borrowers
        manage their debt through the ``Pay-as-You-Earn'' proposal that
        caps student loan payments at 10 percent of a borrower's
        monthly income. The President's FY 2015 budget would extend
        this proposal to all student borrowers.

  <bullet> ED has developed a number of new tools for HEA Title IV
        degree-granting institutions (including TCUs, NASNTIs, and
        ANNHs), such as the College Scorecard and the Financial Aid
        Shopping Sheet, to help students and families make informed
        choices about college. In addition, the President's new college
        ratings system will provide information about access,
        affordability, and outcomes at postsecondary institutions. The
        college ratings system will be available to students and
        families for the 2015-2016 school year.

Conclusion
    The Administration, tribal nations, Congress, postsecondary
institutions, states, and the private sector must all work together to
keep college affordable, accessible, and available to all students. AI/
AN students around the country benefit from this commitment. At a time
when higher education is more important than ever for our shared
future, the nation must continue to invest resources to improve college
completion for the AI/AN community. This is essential for maximizing
both individual opportunity and our collective economic prosperity.
    The Administration remains committed to working with tribes and
supporting TCUs to ensure that all AI/AN students have high-quality
educational experiences that prepare them for careers and productive
lives.
    Thank you for holding this hearing. I look forward to working with
the Committee to improve higher education opportunities and outcomes
for AI/AN students. I would be happy to answer any questions you may
have.

    The Chairman. Thanks, I appreciate your presentation.
    The special programs for Indian children activity for the
Department of Education has seen an approximate 5 percent
decrease in funding since 2010. These are special programs for
Indian children. Located within this activity is professional
development programs, which is composed of an American Indian
teacher course and an American Indian administrator course.
    These programs seek to recruit and retain effective
teachers and administrators for schools with large Native
populations. If the Department is aware through its own
national assessment of educational progress of the significant
disparities that face American Indian students, how can this
decrease be justified?
    Ms. Studley. I have to admit that I am not specifically
familiar with that change.
    The Chairman. That is fine.
    Ms. Studley. I would be happy to get back to you with some
details about that. Obviously teacher preparation and the
specialized preparation of Native American and Alaska Native
teachers is important to us. But within the constraints of the
budget, we had tough decisions to make. I will find out more
about that.
    The Chairman. I would appreciate that. Part of the problem
is, if the studies show that we need certain things within our
education and we decrease funding, unless there is a reason for
it, that is why I asked you the question, if we are talking
budget priorities, I would think this would be a pretty high
priority. But I will let you get back to me.
    Ms. Studley. Future preparation is clearly tremendously
important. Let me find out about that specifically.
    The Chairman. Okay. I want to talk about per student
funding disparities that exist between minority-serving
institutions. It seems that per-student funding at tribal
colleges and universities are at the lowest as far as funding.
I am not going to argue that you take away any benefits from
any other minority-serving institutions. But shouldn't they all
be at the same level?
    Let me give you an example. Blackfeet Community College, we
have Billie Jo Kipp here today, $5,850 per student. Howard
University here in D.C., the Federal Government provides almost
$22,000 per student. Now, I am not saying you should cut the
folks here at Howard. But I am wondering why there is such a
big disparity between those two minority-serving institutions.
    Ms. Studley. We clearly would like to increase support for
education across the board and increase our investment in a
wide range of institutions. If you look at the Pell allocation,
you would find that tribal colleges and universities are
particularly on the high end of Pell support for students at
the tribal colleges.
    Across the spectrum of the many institutions we have, some
of that funding is for research-based programs and different
kinds of institutions, community colleges, four-year programs,
career and technical programs, and research universities
receive different kinds of funding from different agencies. So
the Pell Grant program has seen tremendous increases and the
tribal colleges and universities have among the highest Pell
receipts because their students, as we recognize, are
particularly needy.
    Some of the dollars that you are talking about are dollars
from research-based programs and from other agencies for
different purposes. What we would like to do is improve the
resources and the ability to support education in all of these
schools, including certainly the ones attended by AI/AN
students.
    The Chairman. Okay. I think we will have our staff dig into
that a little more, to see if the Pell actually makes up the
difference.
    Ms. Studley. I don't assert that Pell closes that gap. But
it is one program where the resources are targeted to
undergraduate students with substantial need. It travels with
those students to tribal colleges. There are other programs
that they do not participate in. We recognize those
differences.
    The Chairman. Before I turn it over to Senator Barrasso, I
would just say that the reason we have had a series of hearings
on education, whether it is preschool, or whether it is higher
education is because poverty is rampant in Indian Country, in
my neck of the woods. I think the only way you get out of that
is with education. If college affordability becomes an issue
these folks are not going to be able to achieve what all they
can be. There has to be accountability in the process, make no
mistake about that. But the fact is if we are going to break
poverty in Indian Country, the foundation is education, in my
opinion. You don't need to comment on that.
    Senator Barrasso?
    Senator Barrasso. Thank you very much, Mr. Chairman. I
appreciate your line of questioning and appreciate what we are
trying to accomplish here.
    It is interesting, according to the written testimony of
Cheryl Crazy Bull, a witness on the next panel, issues of
academic readiness are a big part of this. The big compound
that many challenges Indian students face in college. So I want
to ask you a little about that. Her testimony notes low college
preparedness levels, so that 74 percent of Native youth require
remedial math instruction, 50 percent require remedial reading
or writing instruction. How is the Department of Education
coordinating with the Bureau of Indian Education and local
public schools to address these academic readiness issues?
    Ms. Studley. We certainly agree that a great deal more has
to be done to help students graduate ready for college and
career. And the preparation that you describe is one of the
biggest challenges in meeting our goals of increasing national
college completion.
    The Department has issued a blueprint for the
reauthorization of the Elementary and Secondary Education Act.
It would include increased standards, better measurements of
student learning and an accountability system based, in part,
on academic growth of students. Teacher allocation and assuring
that teachers who are effective teach the students who need
them most, including the students whom you describe. That is a
critically important component of bridging successfully between
high school and college. Right now, far too much of our effort
is spent thinking about college remediation. If we can more
effectively prepare students in high school through teacher
availability, programs like TRIO and Gear Up, other student
supports, and then with the wider set of resources beyond the
schoolhouse that you talked about in terms of income and
community supports, the better we will do at having people
begin college able to actually do college level work and then
continue to completion.
    So there is a partnership that we need to have between the
K-12 schools and colleges to be ready. It hinges on teachers,
on availability of quality academic programs. We are very much
attentive to the fact that this all begins at the preschool
level. Many of the deficiencies that people experience in high
school did not begin there, they started much earlier. So the
proposals that we have made for early childhood education are
meant to begin that continuum on a stronger base, to improve
high school preparation in math and other subjects as you
described.
    And then avoid the problem of students who complete high
school thinking they are ready for college when, in fact, they
are not prepared for college, even work.
    Senator Barrasso. It seems you do want to get them set up
for success, so when they show up for college they are taking
advantage of every opportunity instead of feeling that they are
sinking.
    Ms. Studley. Right. Some of the colleges that you will hear
from shortly already speak about programs like dual enrollment.
The colleges are participating in one of the strategies that
seems to be helpful in beginning exposure to college-level work
and the demands of college and the feeling that you are, in
fact, on a pathway to college. There is some reason to think
that is a way to have people make a smoother and better
prepared transition. I applaud them for participating in those
programs.
    Senator Barrasso. One of the disturbing facts that comes
out is the 2012 Department of Education report on college
graduation rates noted that Native American graduation rates
were the lowest since 2007. On the other hand, the rates of
other populations seems to be trending upward. So I am curious
what the Department is doing to reverse this decline that we
are seeing in Native American college graduation rates.
    Ms. Studley. The numbers that we are looking at actually
indicate an improvement for AI/AN students, but at a slower
pace than we would like to see or than some of the other
populations. So there is good news about the degree
accomplishments of AI/AN students. It is just not as good as we
would all want to see it be.
    We think that our focus on preschool and K-12 supports are
part of the pathway and the way to accelerate rates, and by
improving teacher effectiveness so that people are on track to
keep moving, would all be very important. Pell supports and
repayment options would give people the encouragement to go to
colleges that would be useful and effective for them. We are
also working on a number of strategies to identify and address
the kinds of things that keep people who begin college from
being among the successful completers. Putting it positively,
there are lots of interesting, beyond experiments, practices
going on at schools to help people develop more effective study
habits to stay with a program, to track persistence and
identify people who are at risk of not completing, whether it
is for financial or family reasons, academic reasons,
incorporation into the community of the school that they are
attending, and trying to recognize that having somebody start
college is not a guarantee of success. There is a lot we may be
able to do in student supports that will help people who want
to go on and complete a degree to actually do that.
    And also to smooth the transition between community
colleges and bachelor's degree programs. That is a place where
for too many Americans, but especially for AI/AN students,
where that transition needs to be better supported. We need to
be clear that people can take the work they have done to the
next academic level so they can move smoothly toward the
completion of a bachelor's degree if that is their objective.
So there are a lot of ways we are looking at increasing even
further those accomplishments.
    The Chairman. Senator Franken?

                 STATEMENT OF HON. AL FRANKEN,
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you, Mr. Chair.
    I am glad that Co-Chairman Barrasso is talking about
college readiness. I am glad that you responded by saying we
have to go to the preschool. Everything that you mentioned just
brings up something for me. I am sure this works for you too.
You talked about study habits, housing. Housing on our
reservations----
    Ms. Studley. Transportation, getting to school and college.
    Senator Franken. And let's go back just a second to
housing. If you don't have housing and families end up living
together and somebody in one of the families has an addiction
or there is domestic violence, you are perpetuating these. One,
the kids are exposed to it, they are witnessing it. I am so
glad that Senator Murkowski and Senator Heitkamp are looking at
this children's study.
    We have so much to do. Where are we doing early childhood
education? I know that on White Earth in Minnesota we are doing
it. We are not doing enough of any of these things, are we, is
the answer, right?
    Ms. Studley. And we are not doing it systematically enough.
And sometimes it is the students who need it most who don't
have the access to it.
    Senator Franken. Of course. And during the sequester, we
saw Indian schools particularly hit. So I just don't think we
are doing right by our original citizens.
    Then you get to college. A few months ago I met with Dr.
Don Day, who is the President of Leech Lake Tribal College in
Cass Lake, Minnesota. He told me one of his biggest challenges
is just finding adequate operational funding for a school. In
fact, the legislation authorizing funding for tribal colleges
authorizes $8,000 for each Native American student. But the
actual funding for the most recent academic year was only about
$5,600 per student, which is 30 percent below the authorized
level.
    My question is, can we at least appropriate the authorized
level? How do we do that?
    Ms. Studley. I think the question is for you and your
colleagues, who have the appropriation authority. We certainly
can see that the lack of those funds constrains these hard-
working colleges.
    Senator Franken. You have the right answer.
    [Laughter.]
    Senator Franken. I think we have to do that. The President
has to ask for this, too, in those budgets. We don't have
budgets, we don't get from the White House when it makes
budgets, we have Deputy Secretary Washburn come here and not be
able to really defend the budgets that were sent here when it
comes to school reconstruction. I have kids in Leech Lake,
again, that are in the Bug-O-Nay-Ge-Shig School which is a pole
barn. Since I have been here, since the day I got here, I have
been trying to get that place reconstructed. Because when the
wind blows more than 40 miles an hour, they have to leave
because it is not safe. This winter, it got down to 30 below
zero with the wind blowing. And the kids had to leave the
school and run 400 yards for other shelter. We need to fund
school reconstruction. We need everything you pointed, every
direction you pointed to, the answer to Senator Barrasso's
question is somewhere we are failing, I believe.
    These questions are hard enough without the proper funding.
But I really am disappointed every time, I mean, yes, we in
Congress make the appropriations, but also when we get the
budget from the White House, I find that incredibly
disappointing.
    I do like what you are talking about with college
alignment, high school alignment with college. I really believe
that we have to be preparing our kids for college as you said
in early childhood. But we have to be thinking about careers.
And one of the things I have been trying to do is meet the
skills gap. I just met today with people in construction,
contractors who have a skills gap in their business now, just
like in manufacturing, just like in IT. We have to be able to
also tell our kids, yes, you can go to college, yes, you can go
to law school, yes, you can go to medical school. I want
American Indian kids having that dream. I also want them to
know that they can go to two-year community technical college
and get a job and get a good, middle class job. And that they
don't necessarily have to go through a four-year school. It is
not for everyone.
    Ms. Studley. I agree. If I could just mention, as I have
traveled the country I have heard many references to welding
and to the fast pace at which welding students get out of
school and are put right to work because the jobs are there.
And I was very pleased to see in the testimony that will follow
me that there are programs at some of these colleges that
recognize those labor market needs and are offering successful
welding programs.
    So I think it is important that students have the options
based on their skills and also that their schools are able to
provide for that.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. It is
important, as we are talking about barriers to success with
Native American children, Alaska native children, you think
about things like transportation as you have mentioned, and
housing, as Senator Franken has mentioned. Then there are also
some things that are less tangible. I know at the University of
Alaska, Fairbanks, we have effectively a program where the
Native students who come from a very, very small village are
just overwhelmed by being in a mid-size town. Fairbanks is not
big by anybody's standards.
    But it is extraordinarily intimidating in being in that
college setting. Just getting comfortable in a system can be a
struggle. Initially the thought was, you just integrate
everybody and move them in. But we lost a lot of our young
people who said, it is just too intimidating. So now we are
looking at other models as to how we can put them in a
situation and experience that does not prohibit them from
achieving success.
    I wanted to talk about a couple of different regulations
that we are seeing within the department that I have been made
aware could actually be an impediment to our Native American
students. One is limiting financial aid eligibility based on
the time it takes a student to earn their degree. So if you
have, as Senator Barrasso has mentioned, you have Native
American students that when they come to college, they need a
level of remediation that just takes some time. So they can be
working hard to get their skills up, but it is taking them
longer than the financial aid eligibility package will allow
them. So they get up to speed and then they run out of
financial aid before they can complete the college.
    What is the Administration doing to address this aspect of
aid?
    Ms. Studley. We are working as hard as we can to avoid the
problem in the first place, to assure that people are prepared
or that the remediation is as swift a process as possible, so
that people don't run into those limits at the far end. The
financial aid timetables, they don't expect that a pupil must
complete a two-year degree within two years, or a four-year
degree within four years. Those are old fashioned terms now.
They have some leeway, recognizing that it takes some students
more time, even if they are attempting to go to school on a
full-time basis. While it is a tough balance to strike, we
think it is important that both the student and the school know
that they need to make headway. Our efforts go into high school
readiness, the transitional programs, and sharing the word
about what makes for a good and effective remediation program.
    There is a great deal of effort, some of it coming out of
the White House summit this past winter, about improving
remediation programs. There are ways to teach math and
statistics that are much easier for a lot of students than some
of the traditional ways they have been taught.
    Senator Murkowski. Let me ask you this, if I can interrupt.
I have another question as well. Are we tracking how many
minority students might be dropping out, those that have to go
through the remediation, who got financial aid, then the
financial aid clock runs and they drop out? I think it would be
interesting to know what we are looking at, at numbers. I don't
know if you have that, but if that is something you could look
at I would certainly be curious.
    Ms. Studley. I will look at that too and how we are
tracking, whether we know anything about how those patterns
work now and as it goes forward.
    Senator Murkowski. Let me ask also about the dual
enrollment programs. You mentioned this. I had a meeting just
last week with a provost from the University of Alaska. I was
made aware that we got regulations now that require a student
to make satisfactory academic progress to retain financial aid
eligibility, okay. But now that is being applied to students
who attend college through the dual enrollment programs.
    So again, you have a situation here where we are going to
encourage our Native American students, we want to put them in
a safe place where hopefully they can learn from their
mistakes, they will learn better time management skills, they
will learn better study habits. But it seems to me you are
going to be in a situation again where you are encouraging the
dual enrollment, which I am all over, but you have a cutoff
where things are not lining up to allow that student to go
fully through the system in coordination with the financial aid
eligibility.
    So it is something that, again, was brought to us as an
issue where you really have an unintended consequence at play
here with some of your minority students, just those students
that we would want to encourage to be part of this dual
enrollment to get their feet on the ground. And then the
financial aid is pulled out. So I would ask you to look at that
if you have not already.
    Ms. Studley. We certainly can. One of the challenges of
incorporating these new methods of instruction and these new
hybrid models and so forth is to connect them with the existing
student aid regulations, which are there for a reason, but we
have to work hard to make them adaptable to new circumstances.
We are doing things like an experimental sites program to look
at situations where we can relieve regulatory burdens in order
to allow new processes to go forward. We will look at that
particular question and see if it is creating a pinch for those
students.
    Senator Murkowski. Mr. Chairman, I would think that in
light of the just devastating statistics that we have with our
Native American students that this would be an area where the
Department, through their regulations, could work
administratively to perhaps make sure that things measure up
between the financial aid and the ability to access that and as
we are trying to get these students really safely integrated
into a system so it doesn't fail them.
    The Chairman. I agree. Senator Johnson?
    Senator Johnson. I appreciated learning about the successes
at Chief Dull Knife College in regard to the implementation of
Native language education in the classroom. Is data being
collected to understand the role that Native language has in
retention rates?
    Ms. Studley. That is an interesting question. I don't know
if we have looked at it specifically. Clearly we know that
things that engage students in the curriculum, that make them
feel at home at college and when there is something that they
want to learn and want to continue learning, are important. I
am not familiar with whether we or the colleges have
specifically looked at whether that increases retention. I hope
it does. Let me see if we can amplify that.
    Senator Johnson. Will you look into that?
    Ms. Studley. Yes, absolutely, sir.
    Senator Johnson. I was pleased to learn that three times as
many masters degrees were awarded in Native students in 2012
than in 2002. What contributed to this sharp increase and what
degrees were most sought by Native students?
    Ms. Studley. I don't know the degrees off hand. We were
also very pleased to see that. I imagine it is a number of
forces ranging from the institutions themselves seeking these
students, the preparation that they had from the colleges that
they attended. We can let you know what fields they were in. I
believe that teaching was one of the fields for growing masters
degrees, which would be a tribute to the very programs that we
began with.
    But let me let you know how those break down.
    Senator Johnson. As you know, in December of 2011,
President Obama signed an executive order calling for a two-
part four-year plan in which Federal agencies focused on
expanding education opportunities and improving outcomes for
Native American students. What progress has been made thus far
at the Department of Education regarding the President's order?
    Ms. Studley. In February, following that, the President's
Inter-Agency Working Group on Indian Education brought together
29 Federal agencies to implement that executive order. The
development of those plans is underway but has indeed not been
fully realized at this point.
    One of the things that we realized was that the request for
the plans was made perhaps too informally and we are in the
process of making a much clearer request for the two-part,
four-year plans with more specific guidelines and a clearer
delivery date. We expect to have that clearer guidance go out
this summer and to have consultations on the draft agency plans
by this winter.
    Senator Johnson. Very good. You highlight that Native
student achievement test scores have not improved when compared
to non-Native students. What measures has the Department of
Education taken to address this issue?
    Ms. Studley. Much of this work is at the elementary and
secondary level. I know that you have had and will have again
hearings on those particular issues. But as we work to
distribute teachers who are capable of helping students reach
satisfactory educational achievement levels, we hope that will
be part of the solution. We also believe that States aligning
curriculum with the tests these students will take will give
them better signals about what they are going to be tested on
and help them be better prepared to do well on those exams. But
it is a tremendous challenge and it is one of the many markers
that we look at to show that we still have quite a ways to go.
    Senator Johnson. I yield back.
    The Chairman. Senator Heitkamp.

               STATEMENT OF HON. HEIDI HEITKAMP,
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you, Mr. Chairman. This is so
incredibly frustrating, as I sit here and listen. Chairman
Tester has started these hearings with early childhood, and you
can see it building and building. As we go through each one of
these steps, I think we get more and more frustrated, because
we don't really see a plan to change outcomes.
    And if we keep doing what we have always done and maybe
tweak it around the edges, we are going to always get this
result. So where is the dramatic change? I am hoping we will
see some of that from the President. When he comes to North
Dakota we are going to welcome him and he is going to spend
some time with our children there.
    I just want to tell a little story. I think it is probably
a story here a lot of folks here know. It is about the two
fishermen fishing away and all of a sudden the baby is in the
water. They rescue the baby and this goes on quite a bit.
Pretty soon the river is full of children. The one who is in
the water rescuing the babies and handing them ashore walks
away. And the one in the water saw the one in the water walk
away. And the one on the shore said, you can't quit, we have
these children. He said, you don't understand. I am walking
upstream to stop people from throwing them in.
    So at what point do we walk upstream and really change
outcomes? I listen and I agree with you, better teachers, more
accountability and what the elementary principals who were here
a couple of weeks ago would have said is, where are my
resources? You tell me where to find those teachers. You tell
me where I find that accountability. All you are going to do is
blame me and then you talk to the early childhood folks and
they say, we can't do this without better institutions in
prenatal, we can't do this without better health care, we can't
do this without a better economy.
    And I guess I just want to impress upon everyone who is
involved in Indian education, yes, it is the way forward. But
we have to recognize that instead of trying to fit all of our
great ideas within programs, we have to start thinking about
what kids need. And they need, as Senator Franken said, they
need a good home. You know what? They don't have that in Indian
Country. They need a family that is loving and supportive and
not stressed with poverty. Guess what? A lot of them don't have
that in Indian Country.
    So I hope that as we look at strategies on improving
educational attainment for Native American children we broaden
our scope and understand that that process really is un
achievable unless we really do take a comprehensive community
support for the change that we need.
    With that said, I would tell you, I have met brilliant, and
I agree with you and Senator Murkowski and a lot of people
here, there are great kids who are coming out of the university
systems, a lot of them have interned in my office. I see great
hope there. If we really talk to those kids and say, look what
a great job we have done, we are ignoring the 95 that fell
through the cracks.
    So what I really would like to ask is, what within your
responsibility, how often do you have conversations about
changing outcomes based on a holistic, community-wide, family-
wide support?
    Ms. Studley. There are lots of different ways I could come
at your question. One is that we think about how we can shift
resources to the schools that are actually achieving results
for the lowest income students. This would certainly put a
focus on those schools that are serving Alaska Native and
American Indian students.
    Having schools be very clear with us in their reporting
would allow us to provide more resources to those that are
successfully graduating more AI/AN students from college or
making progress toward increased graduation. These are the
places that have shown us that they know how to improve results
and where we can have hope that, if they have a little bit more
to work with, they can reach more students or produce outcomes
more consistently.
    So, as you said, there are ways to look at outcomes but
also to put resources behind it so we allocate them to the
places doing the hardest job that we know about in American
higher education that are taking people to completion.
    Another is working with other agencies. As I mentioned,
these plans are not just ours alone. There are 29 Federal
agencies, at the very least, whose work affects the opportunity
and ability of Native Americans and Alaska Natives, who have
the resources, whether it is safety or health care or food and
nutrition. Or the education that you can benefit from only if
you actually have those in the first place. So part of it is
interagency.
    We are also looking at ways that communities can, or we can
help communities that want to come together, through the school
superintendent, college leaders, in this case tribal leaders,
philanthropy, faith-based organizations, think about how we can
make those partnerships better. The Administration is looking
at how we can support those kinds of partnerships so that all
the people who play a part in stronger communities and
therefore in increased college success can benefit from what
others are doing in other communities, from our smallest
communities in rural neighborhoods to the large cities, where a
number of these students are also educated.
    So we are trying all of those approaches, interagency,
institutional rewards for the successes that we see to help
give those places the help that they need, and helping
communities learn internally from each other and then from
successful community partnerships. I think you are right on
track.
    The Chairman. There will be questions that will be
presented to you that you will need to answer for the record.
    I would just say that first of all, I want to thank you for
being here today and want to thank you for your testimony and
for answering questions. I really do hope that the Department
really puts some priority on the challenges that are out there
in Indian Country and across the board, too. This is the Indian
Affairs Committee, so it is Indian Country.
    The challenges are great, the opportunities are greater. I
think that if we are able to think outside the box and work
with some of the people on the next panel and others, we can
come to solutions. I applaud your staying for the next panel. I
think that is very, very good. Hopefully it won't put you in
too much time difficulties.
    With that, we will just say thank you and we will start the
second panel.
    Ms. Studley. Thank you very much.
    The Chairman. I would now like to ask our second panel to
come forward. Our witnesses include Dr. Billie Jo Kipp, who is
the President of Blackfeet Community College in Browning,
Montana. They have a nice campus, very nice. Next we will hear
from Ms. Cheryl Crazy Bull, President of the American Indian
College Fund in Denver, Colorado. We will then turn to Dr.
Thomas Purce, President of the Evergreen State College in
Olympia, Washington. Finally, we will hear from Melvin Monette,
Director of Graduate Fellowships at the American Indian
Graduate Center in Albuquerque, New Mexico.
    I want to welcome all of you. I would remind you it is five
minutes, there are four of you. We are going to have some
questions and I don't know what kind of time constraints
Senator Heitkamp is under, but if you can keep it to five
minutes, we would appreciate it, knowing that your entire
written testimony will be a part of the official record. We
will start with you, Billie Jo. Thank you for being here.

  STATEMENT OF BILLIE JO KIPP, PRESIDENT, BLACKFEET COMMUNITY
                            COLLEGE

    Ms. Kipp. Mr. Chairman, I am Billie Jo Kipp, President of
Blackfeet Community College in Browning, Montana. I ask that my
full statement be included in this hearing's record.
    On behalf of my college and the Nation's 36 other tribal
colleges and universities, which are collectively the American
Indian Higher Education Consortium, thank you for this
opportunity to speak on tribal higher education. I thank the
Committee, and you in particular, Mr. Chairman, for your
ongoing support which enables TCUs to serve more than 88,000
American Indians and Alaska Natives each year through academic
and community programs at more than 75 sites in 16 States.
    Mr. Chairman, the Federal Government's modest investment in
tribal colleges is yielding a tremendous return. In Montana,
the investment in tribal colleges is powerful. Half of all
Native students in higher education in our State attend our
seven TCUs, with the largest percentage, 13 percent, at BCC.
Most Native students enrolled in Montana's State universities
are likely there because of a tribal college.
    This Committee has heard the challenges facing Indian
Country: poverty, broken social services, dysfunctional
governments and more. These challenges are serious, but not
insurmountable. They do not define us. Hope defines us. It is
ability to look back, to draw from our stories, our songs, our
history and our language to build a better world on our own
land. Tribal colleges are transforming this vision into
reality.
    BCC, along with all the tribal colleges, takes up in a few
pitiful dollars and shapes them into opportunity for
educational success, healthier lives, revitalized languages and
safer environments for our people. At BCC, we have established
early childhood and elementary education programs at the
associate level to begin building a workforce of Blackfeet
teachers, because our children learn best when they have
teachers who look like them. All TCUs are committed to growing
more Native teachers.
    Half of all Native special ed teachers in Montana today are
SKC graduates. BCC and SKC could enroll 40 to 50 American
Indian teacher aides in four-year elementary ed degree programs
if we had funding to provide scholarships and expand our
capacity. But the key Federal resource for tribal teacher
development in the Office of Indian Education has been on a
downward funding trend almost since it was reestablished in
2000. BCC has not received a grant through that program for
years. But still we find ways to encourage success, including
developing a behavioral health training program for K-12
teacher aides on our reservation, so they can help address
challenges facing our children.
    BCC and other Montana TCUs are leading Indian Country in
our commitment to sustainable environment. BCC built the first
Platinum LEEDS certified building in Indian Country. Little
Bighorn College followed us, building the largest. Both
buildings house vital community-based programs. Today they are
the only Platinum LEEDS certified buildings in Indian Country.
    Unfortunately, a few years ago the President and Congress
eliminated the very modest eight HUD TCU program which had
provided seed money that we leveraged with other financing to
construct these buildings. HUD TCUP was a $5 million program
annually, which we leveraged ten to one to build wellness
centers, computer labs, Head Start Centers and libraries for
our communities.
    You have been to our communities. You have seen the
tremendous need. Please help us restore this program.
    In workforce development, BCC has developed stackable
nursing programs. We just graduated our largest group of
American Indian LPNs. Soon we will offer an accredited RN
program.
    We also have an innovative behavioral health aide program
and are partnering with the University of Montana on a social
work degree program. Soon BCC hopes to join SKC and Oglala
Lakota College as the Nation's top producers of American Indian
RNs and social workers.
    Again, we are achieving these goals with little support
from key Federal agencies. TCU proposals to HRSA and other
agencies are turned down year after year. We cannot compete
with major universities. Within the larger Federal health
workforce training programs, we need and deserve a specific
setaside for all tribal workforce training. Tribal colleges are
academic institutions and student success and completion are
key. These are challenges, because more than 70 percent of our
students require developmental education.
    The Chairman. I would ask that you wrap up.
    Ms. Kipp. Still, the overall retention rate has improved 32
percent. Again, the funding is the disparity. You have
mentioned it. It is $22,000 for Howard, compared to $5,800 for
the tribal colleges. With our treaties in one hand, the U.S.
Constitution in the other, and the hope of our Nation in our
hearts, we ask your commitment to work with us to address
longstanding inequities and make a proven investment in tribal
higher education. Thank you.
    [The prepared statement of Ms. Kipp follows:]

 Prepared Statement of Billie Jo Kipp, President, Blackfeet Community
                                College
    Mr. Chairman and distinguished members of the Committee, my name is
Billie Jo Kipp. I am a member the Blackfeet tribe, President of
Blackfeet Community College in Browning, Montana, and a member of the
Board of Directors of the American Indian Higher Education Consortium
(AIHEC). On behalf of my institution, Blackfeet Community College, and
the 36 other Tribal Colleges and Universities (TCUs) in the U.S. that
compose AIHEC, thank you for inviting me to testify at this hearing
examining higher education for American Indian students.
    It is an honor to speak with the members of this Committee about
Tribal Colleges and the work we are doing to transform Indian Country.
We are also grateful to have the opportunity to thank you in person,
Chairman Tester, for your tremendous work on behalf of the seven tribal
communities in Montana and all Native people.
    My statement touches on three topics: The Tribal College Movement
in general; the accomplishments and challenges of TCUs in bring high-
quality, culturally appropriate higher education opportunities to our
students and outreach programs to our communities; and some
recommendations that will help us address our collective mission of
improving the lives of our students through higher education and moving
American Indians toward self-sufficiency. I submit this written
statement for the Hearing Record.
Background: The Tribal College Movement
    Mr. Chairman, you and many of the members of this Committee know
the Tribal Colleges well. Perhaps no other Members of Congress know
better our challenges: as some of the most poorly funded institutions
of higher education in the country, our struggle is a daily one. Yet,
you also know of our considerable successes, from our work to build
self-esteem and change the life and future of our students through
nurturing educational environments that are culturally based and
uniquely relevant to our students, to our efforts to build stronger and
more prosperous Tribal nations through the restoration of our
languages, community outreach programs and applied research on issues
relevant to our land and our people, workforce training in fields
critical to our reservation communities, and community-centered
economic development and entrepreneurial programs.
    Tribal Colleges and Universities are a vital and essential
component of American Indian/Alaska Native (AI/AN) education.
Currently, 37 TCUs operate more than 75 campuses and sites in 16
states, within whose geographic boundaries 80 percent of all American
Indian reservations and federal Indian trust land lie. We serve
students from well over 250 federally recognized tribes, 80 percent of
whom receive federal financial aid. In total, TCUs annually serve about
88,000 AIs/ANs through a wide variety of academic and community-based
programs. In Montana, 50 percent of all American Indians enrolled in
higher education attend one of seven TCUs in our state, and a full 13
percent are students of Blackfeet Community College. In fact, according
to all available statistics on American Indians enrolled in federally
recognized Indian tribes and currently engaged in higher education
nationally, more than 50 percent attend TCUs. \1\
---------------------------------------------------------------------------
    \1\ This statistic excludes self-reporting, which despite having
been shown in studies to be unreliable, is the measure used by the
Department of Education's White House Initiative on American Indian and
Alaska Native Education.
---------------------------------------------------------------------------
    TCUs are public institutions accredited by independent, regional
accreditation agencies and like all U.S. institutions of higher
education must periodically undergo stringent performance reviews to
retain their accreditation status. Currently, all TCUs offer associate
degrees; 13 TCUs offer multiple bachelor's degrees, and five TCUs offer
master's degrees. Each TCU is committed to improving the lives of its
students through higher education and to moving American Indians toward
self-sufficiency.
    Tribal colleges are public institutions of higher education and, as
such, student access and success are core goals. These present real
challenges, because more than 70 percent of our students require
developmental education in mathematics, and more than half need
remedial work in reading and writing. Still, the overall TCU retention
rate has improved 32 percent in eight years and our graduation rate is
up 17 percent. TCUs have achieved this through first year experience
programs, integrating academics with student support, and putting
research in the classroom. Yet, while our retention and completion
rates have improved, our operations funding has not.
    Tribal Colleges are first and foremost academic institutions, but
because of the number of challenges facing Indian Country--high
unemployment, poorly developed economies, poor health status, and lack
of stable community infrastructures, our colleges are called upon to do
much more than provide higher education services. TCUs often run
entrepreneurial and business development centers; many TCUs are the
primary GED/Hi SET or other HS equivalency program and Adult Basic
Education provider on our reservations, and most if not all TCUs
provide a variety of evening, weekend training and para-professional
programs for tribal employees, BIA and IHS staff, K-12 schools, tribal
courts and justice system staff, and many others. TCUs run day care
centers and Head Start programs, health nutrition education programs,
community gardens, and often, the community library and tribal museum
or archives.
    Perhaps most important, Blackfeet Community College and all of the
TCUs are actively and aggressively working to preserve and sustain
their own tribal language and culture. All TCUs offer Native language
courses. In some cases, the tribal language would have been completely
lost if not for the local Tribal College. Turtle Mountain Community
College in Belcourt, North Dakota, was established primarily for this
purpose, and over the years, its success in writing and revitalizing
the Turtle Mountain Chippewa language has been remarkable. Aaniiih
Nakoda College in Montana runs a K-6 language immersion school, right
on campus. At the White Clay Immersion School, children learn the White
Clay language and culture in addition to subjects they would routinely
study at any other school.
    Many TCUs offer unique associate and bachelor degree programs, as
well as in-service training, in elementary education. At the TCUs,
teacher education programs follow cultural protocols and emphasize the
use of Native language in everyday instruction.
    Tribal Colleges have advanced American Indian higher education
significantly since we first began in the late 1960s/early 1970s. Yet
despite these advances funding for TCUs remains grossly inadequate:

        (1)  Tribal Colleges are not state institutions, and
        consequently, we receive little or no state funding. In fact,
        very few states provide support for the non-Indian state
        residents attending TCUs, which account for about 20 percent of
        all Tribal College students. However, if these same students
        attended a state institution, the state would be required to
        provide the institution with operational support for them. This
        is something we are trying to rectify through education and
        public policy change at the state and local level.

        (2)  The tribal governments that chartered Tribal Colleges are
        not among the handful of enormously wealthy gaming tribes
        located near major urban areas that one reads about in the mass
        media. Rather, they are some of the poorest governments in the
        nation.

        (3)  Finally, the Federal Government, despite its trust
        responsibility and treaty obligations, has never fully funded
        our primary institutional operations source, the Tribally
        Controlled Colleges and Universities Assistance Act. Today, the
        Act is appropriated at about $5,850 per full time Indian
        Student, which after over 30 years is still only about 73
        percent of the level authorized by Congress to operate these
        institutions.

    Faced with ever rising costs of day-to-day operations, to continue
to thrive and expand as community-based educational institutions, TCUs
must stabilize, sustain, and increase our basic operational funding.
Through tools such as AIHEC's comprehensive data collection initiative,
AIHEC AIMS, which includes more than 120 quantitative and qualitative
indictors on which all TCUs report annually, we hope to better educate
the public, lawmakers, and federal officials about the cost-effective
success of our institutions. Through opportunities such as this, we
hope to share with the Congress and others how we are helping to meet
the challenges facing our tribal nations.
Accomplishments and Challenges
    Since our inception, Blackfeet Community College--like all TCUs--
has taken hope and a pitifully few dollars, and shaped them into
opportunity: opportunity for success throughout the education
continuum, early childhood to college; healthier lifestyles; more
prosperous communities; revitalized languages; and safer environments
for all of our people. We make all of this possible as holistic tribal
institutions of higher education, but over the past several years,
changes in federal policy and funding priorities have made our work
even more difficult.
The Education Continuum:
    Head Start: With the reauthorization of the Head Start program in
the mid-1990s, Congress imposed new performance and professional
competency requirements. Specifically, at least 50 percent of Head
Start teachers nation-wide were to have a baccalaureate or advanced
degree in early childhood education or a baccalaureate or advanced
degree in any subject and coursework equivalent to a major relating to
early childhood education with experience teaching preschool-age
children, and 50 percent of all teacher assistants were to have had an
associate's degree or enrolled in an associate's program. While the
department may be prepared to declare that this nationwide goal has
been achieved, far less than half of Head Start teachers in the
American Indian/Alaska Native Head Start Program area hold an
associate's or bachelor's degree. Indian children deserve the best, and
the TCUs are ideal catalysts for preparing Indian Head Start teachers
so that they might offer these children the Head Start programs they
deserve. Until the mid-2000s, the TCU-Head Start program helped TCUs
build capacity in early childhood education and provided scholarships
and stipends for Indian Head Start teachers and teacher's aides to
enroll in TCU early childhood programs. Unfortunately, the program was
eliminated despite the great need to expand educational opportunities
for Head Start teachers and aides.
    Teacher Preparation: Of the 34 accredited TCUs, 29 offer early
childhood and elementary education associate's degrees and 10 TCUs have
their own elementary education bachelor's degree programs. In fact,
education program students represent 10 percent of all declared majors
at TCUs and in 2011-12; 10 percent of all certificates and degrees
earned at TCUs were in education. Growth in the American Indian teacher
workforce is critically important because we know that children learn
best and are more likely to graduate high school and attend college
when they have teachers with whom they can relate--teachers who look
like them.
    TCUs are committed to building a Native-speaking teacher workforce,
and all TCU elementary education programs stress culturally and
developmentally appropriate pedagogy and embed community values and
tribal culture in the content. Their strategies are working. For
example, half of all the Native special education teachers in Montana
graduated from Salish Kootenai College. At Blackfeet Community College
students who decide to major in Blackfeet language or Blackfeet studies
are strongly encouraged to apply for the Class 7 Teaching License
through Montana's Office of Public Instruction office. Today, BCC and
SKC could easily enroll 40-50 American Indian teacher aides in
elementary education bachelor's degree programs if we had funding to
provide scholarships and expand our capacity. But the key federal
funding source for tribal teacher development, operated by the
Department of Education's Office of Indian Education, has been on a
downward funding trend almost since it was re-established in 2000.
    BCC has not received a grant through the program for several years.
Still, we continue to encourage success, including developing a
behavioral health training program for K-12 teacher's aides on our
reservation, so they can recognize and help address fundamental
challenges facing our little ones. We need your help, Mr. Chairman, to
reinforce the TCUs' role in American Indian teacher preparation and
increase the number of TCUs able to participate in the grant program
designed to build an American Indian Teacher/Administrator Corps.
    Dual Credit: American Indian youth have the highest high school
drop-out rates in the nation. Research tells us that keeping students
engaged and setting achievable goals and realistic expectations are
keys to completion. For this reason, nearly all of the TCUs are
currently engage in dual credit programs that are designed to keep
American Indian high school students engaged in school, to graduate,
and to pursue higher education goals. All of these programs are offered
at little or no cost for the students and high schools. The TCUs--
without any compensation from states or the Bureau of Indian Education
(BIE)--offer this service at our expense because we know it is one very
effective way to help save our American Indian children. It gives them
a path to a better future and opens a world of opportunity.
    TCUs will continue to offer these life-changing and life-saving
programs, but over the past few years, we have been urging the BIE and
various states to work with us to expand these programs and level the
playing field.
    Improve Native Workforce Opportunity: Re-establish the TCU Adult
Basic Ed/GED Training Program: In the mid-1990s Congress eliminated a
modest set-aside within the Adult Basic Education block grant program
that funded vitally needed TCU GED and ABE training programs. Now, all
federal funding goes to the states, which rarely--and minimally--fund
tribal GED programs. Despite the absence of dedicated funding, TCUs
must find a way, often using already insufficient institutional
operating funds, to continue to provide adult basic education classes
for those American Indians that the present K-12 Indian education
system has failed. Before many individuals can even begin the course
work needed to learn a productive skill, they first must earn a GED.
The new GED exam, which was instituted in January 2014, has a much
stronger focus on mathematics. As noted earlier, placement tests for
TCU-entering students reveal a tremendous need for math remediation.
Additionally, the new GED test is fully computerized. While younger GED
seekers may be comfortable with computer-based testing, older citizens
may not be. These factors indicate a continuing and growing need for
adult basic educational programs and GED preparation on Indian
reservations. TCUs must have sufficient and stable funding to continue
to provide these essential services and to ensure their communities'
residents have the same chances to succeed as others throughout the
country. American Indians have the highest high school drop-out rates,
highest unemployment, and highest poverty rates in the nation. With the
launch of the new GED, the need for this modest program (ED-OVAE) is
even more critical. The fix is simple, no-cost, and life-changing.
    Egregious Funding Inequities: Despite a proven return on
investment, trust responsibility, and binding treaty obligations,
Tribal Colleges have never been adequately funded by the federal
government. The Tribally Controlled Colleges & Universities Assistance
Act of 1978 authorizes $8,000/Indian Student (ISC) for TCUs' operating
budgets, but TCUs currently are receiving only $5,850/Indian student.
The president requests and Congress appropriates over $200 million
annually to operate Howard University (HU), the only other Minority
Serving Institution that receives federal operating funds. HU's federal
operating funding is almost $22,000/student. HU needs this funding--so
do TCUs.
    Congress designated TCUs as land-grant institutions in 1994. Our
USDA partnership is important because as American Indians, land is
central to who we are. We are people of a place. Yet, the TCU (1994)
land-grant programs are absurdly small compared to other land-grants,
even though some of the reservations served by 1994 institutions are
larger than several states. Here are the numbers for FY 2014:

------------------------------------------------------------------------
    Program       TCUS (1994s)--34    States (1862s)   HBCUs (1890s)--17
------------------------------------------------------------------------
Extension        $4.4                $300             $43.9 million
 (community       million_competiti   million_formul
 outreach)        ve                  a
AG/land          $1.8 million        $243.7 million   $52.5 million ($1M
 Research                                              minimum)
 (basic,
 applied)
FERTEP, CYFAR,   NO                  YES              YES
 McIntire-
 Stennis
------------------------------------------------------------------------

    In addition to the basic funding inequity, the 1862 and 1890 land-
grant institutions are eligible to compete for millions of dollars in
funding from seven additional programs known as Smith-Lever 3(d)
programs, including a Federal Recognized Tribes Extension Program and a
Children, Youth and Families at Risk initiative, in which the 1994
Tribal College land-grants are barred from participation. Consistent
with the philosophy of exclusion, the 1994 institutions also are barred
from participating in the McIntire-Stennis Forestry program. This is
particularly problematic in Montana, because Salish Kootenai College--
which has the only 4-year forestry degree program among the TCUs--is
shut out of this vital program despite the tremendous need for applied
research on tribal forests. Some people do not like to hear about these
disparities. Yet, these are the facts.
    The negative funding impact for Tribal colleges and our students is
compounded in that we are already being disproportionately impacted by
ongoing efforts to reduce the federal budget deficit and control
federal spending. The FY 2011 Continuing Resolution eliminated all of
the Department of Housing and Urban Development's Minority Serving
Institutions (MSIs) community-based programs, including a critically
needed TCU-HUD facilities program. Through this modest but vital
program, TCUs were able to maximize leveraging potential, often 10-to-
1, securing far greater non-HUD funding to construct and equip Head
Start and early childhood centers; student and community computer
laboratories and public libraries; and student and faculty housing in
rural and remote communities where few and sometimes none of these
facilities existed.
    Important STEM programs, administered by the National Science
Foundation and NASA were also cut, and for the first time since the NSF
program was established in FY 2001, no new TCU-STEM awards were made in
FY 2011. While NSF-TCUP grants resumed in FY 2012, a year of grant
opportunity was lost. Additionally, TCUs and their students suffer the
realities of cuts to programs such as GEAR-UP, TRIO, SEOG, and are
seriously impacted by the new highly restrictive Pell Grant eligibility
criteria more profoundly than mainstream institutions of higher
education, which can realize economies of scale due to large
endowments, alternative funding sources, including the ability to
charge higher tuition rates and enroll more financially stable
students, and access to affluent alumni. The loss of opportunities that
cuts to DoEd, HUD, NSF, and NASA programs represent to TCUs, is
magnified by cuts to workforce development programs within the
Department of Labor, nursing and allied health professions tuition
forgiveness and scholarship programs operated by the Department of
Health and Human Services, and an important TCU-based nutrition
education program planned by USDA. Combined, these cuts strike at the
most economically disadvantaged and health-challenged Americans.
    Mr. Chairman, the issues I have outlined demonstrate that the
educational challenges we face are systemic. Studies, pilot projects,
short-lived funding strategies have led us to some viable, cost-
effective, and proven solutions. What will it take to move forward? It
will take two things: First, a commitment to act--a commitment to move
beyond talk and toward a common vision for Strong Tribal Nations
through Excellence in Tribal Higher Education. Second, it will take
resources, albeit modest, to make an investment in proven strategies
for success. What will Congress and the nation get for the modest
investments outlined below? I can guarantee a rate of return on your
investment of at least 14.3 percent. According to an independent
analysis by the American Association of Community Colleges, the
nation's community colleges--which includes all tribal colleges--yield
a return of $5.80 for every dollar spent (or a 14.3 percent rate of
return), for academic programs alone. For TCUs, this accounts for about
one-third of all of our students, so an investment in TCUs should yield
an even higher return.
Recommendations
    Recommendation One: Revive the TCU-Head Start Partnership program
by directing the Head Start Bureau to designate a minimum of $7 million
of the $8.86 billion recommended for Head Start Programs in the FY 2015
Budget, to the TCU-Head Start Partnership program, to revive this vital
partnership and ensure that this program can continue and expand so
that all TCUs have the opportunity to participate in the TCU-Head Start
partnership program and help in achieving the goals of Head Start for
children in Indian Country.
    Recommendation Two: Specifically and clearly reinforce the lead
role of TCUs in American Indian Teacher Preparation by increasing the
required partnerships with a TCU in applying for American Indian
Teacher/Administrator Corps professional development grants designed to
increase the number of American Indian teachers and administrators
serving their reservation communities and provide a minimum of
$10,000,000 to fund these critically needed competitive awarded grants.
    Recommendation Three: Re-establish a TCU Adult Basic Education
competitive grants program. TCUs recommend that a minimum of $8,000,000
of the funds appropriated annually for the Adult Education and Family
Literacy grants be made available to make competitive awards to TCUs to
help meet the growing demand for adult basic education and remediation
program services on their respective reservations.
    Recommendation Four: Congress should direct the Bureau of Indian
Education to develop and fund a mechanism to reimburse and expand dual
credit programs for BIE high school students attending TCUs; and to the
extent possible, Congress should encourage states to reimburse TCUs for
dual credit courses, just as they do every other public institution of
higher education in their state.
    Recommendation Five: Adopt a 5-Year Plan to Address Long-term TCU
Inequalities in Federal Programs. We need a commitment to establishing
a process, beginning in the FY2015 Budget/Appropriations cycle, that:
(1) identifies current funding inequities faced by TCUs in federal
programs; and (2) works steadily to rectify them. As a first step, we
urge the Committee to specifically question the Department of the
Interior and the Department of Agriculture on these inequities and
their efforts to address them.
    In closing, Mr. Chairman, we recognize and greatly appreciate you
as a strong proponent of the Tribal Colleges and Universities. And now
more than ever, we need your help. The time for studies, commissions,
and talk is past. We all know the problems. TCUs have solutions. We
have created tribal institutions that are sound and stable; that have a
high return on investment; and that have the power to transform Indian
Country. We ask that you and the members of this committee work with us
to find viable ways of achieving our fair funding goals so that we may
continue to bring access and excellence to our students and the
communities we serve.

    The Chairman. Thank you.
    We have two votes at 4 o'clock. I want to get through this
panel before we have to leave. I want to hear what Mr. Monette
has to say.
    Go ahead, Cheryl.

STATEMENT OF CHERYL CRAZY BULL, PRESIDENT/CEO, AMERICAN INDIAN
                          COLLEGE FUND

    Ms. Crazy Bull. Good afternoon, Chairman Tester and
honorable Senators. My name is Cheryl Crazy Bull. I am the
President and CEO of the American Indian College Fund.
    The mission of the fund is to support programs and
operations of this Nation's tribal colleges and universities
and to provide scholarships for access and success for tribal
college students and for a limited number of Native students
attending mainstream institutions. Our support is made possible
through the generous contributions of individuals, foundations
and corporations, because we bring private sector resources to
tribal colleges and universities and their students.
    You are already aware of the significant gap in
participation in higher education by Native people. A
contributing factor is the funding for financial aid for these
students. The average income of first-time entering students at
TCUs is $15,262. The average cost of a TCU education is
$13,800. Only one in 20 of the fund scholarship applicants can
afford to go to college without financial aid.
    Nationally, 36 percent of students receive Pell, but at
tribal colleges, the average is 80 percent and in some cases as
high as 90 percent. The gap between the average cost of $13,800
and a maximum Pell award of $5,645 is $8,155 of unmet need.
    I also want to note that the Pell grant participation is
not a substitute for adequate Federal operational funding of
the TCUs. I also want to note that only two TCUs participate in
Federal loan programs. As TCUs have grown 23 percent in the
last five years, this gap will continue to be a significant
issue.
    Our institutions are rural and technologically isolated.
Transportation remains a huge concern. Fifty-nine percent of
TCU students are first generation students, and our students
continue to combat significant social and educational issues,
such as generational poverty and unemployment.
    The college fund has a major role in supporting access and
success. In 2013, we provided over 6,000 scholarships averaging
$1,403 through 226 different scholarship programs. In the last
25 years, we have given approximately $78 million out in nearly
100,000 scholarships.
    We were recently selected, along with the American Indian
Graduate Center, to administer the Cobell Education Scholarship
Fund. The first meeting with the Cobell board of trustees will
be next week, and we expect to begin distributing scholarships
this fall.
    Our road map for tribal higher education through the
college fund is to support strategies that help us achieve what
other national organizations and the President have supported,
which is a 60 percent post-secondary credentialing or degree
completion among the population served by our tribal colleges.
At the American Indian College Fund, we support early childhood
education in K-12 programs associated with the tribal colleges,
create opportunities for access in meaningful post-secondary
education experiences that support persistence and completion
of our students, which leads to gainful employment.
    We need our tribal colleges to remain open, to be
financially viable and to grow as institutions. So we need your
continued support for full funding of tribal colleges and their
students, for the support of adult and remedial education, to
support child care and expanded student support services, all
within your domain as the Senate Committee, in order for us to
have our shared dream of prosperity come true. Thank you.
    [The prepared statement of Ms. Crazy Bull follows:]

Prepared Statement of Cheryl Crazy Bull, President/CEO, American Indian
                              College Fund
Introduction
    Greetings. I am Cheryl Crazy Bull, a citizen of the Sicangu Lakota
Oyate from the Rosebud Reservation of South Dakota and the President
and CEO of the American Indian College Fund. Thank you for inviting me
here today to talk to you about the financial needs of American Indian
and Alaska Native students when seeking a higher education at tribal
colleges and universities (TCUs).
About the American Indian College Fund
    The American Indian College Fund (the College Fund) is a non-stock
corporation with tax-exempt status pursuant to Internal Revenue Service
Code Section 501(c)(3). The College Fund was established 25 years ago
by the American Indian Higher Education Consortium (AIHEC) with the
mission to provide scholarships to American Indian and Alaskan Native
students seeking a higher education and to support tribal colleges and
universities that are located on or near Indian reservations. Tribal
colleges and universities, also known as TCUs, are located on or near
Indian reservations to provide Native people with access to an
affordable, culturally sensitive, quality higher education.
Native and Tribal College Student Profile
    Nationwide, Native youth face some of the lowest high school
graduation rates. American Indian/Alaska Native educational attainment
rates are the lowest of all ethnic and racial groups. Less than 13
percent of American Indian and Alaska Natives earned a college degree
as compared to 28 percent of other racial groups (U.S. Department of
Education, National Center for Educational Statistics).
    The reason for low higher education attainment amongst Native
people may be due in part to poverty, making financial assistance
critical for Native student success. The average income of first-time
entering TCU students is $15,262, contrasted with the average cost of a
TCU education at $13,800 (of which the average annual tuition cost of
$2,964 is included) (Source: AIHEC). Studies of American Indian College
Fund scholarship applicants show that only 1 in 20 can afford to attend
college without financial assistance. (Source: American Indian College
Fund). This should be no surprise based on the economic profile of our
students' communities. Seven of the 10 poorest counties in the United
States have a TCU, and on TCU reservations unemployment rates are
generally greater than 50 percent. (Source: AIHEC).
    Tribal college students' participation in the federal Pell Grant
program is also an excellent indicator of financial need. As you know,
only the neediest students are eligible for Pell Grants. Students
attending tribal colleges demonstrate very high need by the high
percentage of students who receive Pell Grants at tribal colleges. The
national average for all students receiving Pell Grants at all schools
in academic year 2012-2013 was 36 percent (Source: College Board).
Tribal colleges have a much higher percentage of students who receive
Pell Grants, with approximately 80 percent of TCU students receiving
Pell Grants. The number is even higher at some tribal colleges with
more than 90 percent of their student body receiving Pell Grants
(Source: AIHEC).
    Pell Grants help fill some of the gap for tribal college students,
but it is not enough. The maximum Pell Grant amount per academic year
is $5,645. With an average cost of TCU education at $13,800, that
leaves an average of $8,155 in unmet need. Unfortunately, only two TCUs
participate in the federal student loan program, leaving that need
unfilled for most Native students (Source: AIHEC).
    Despite inadequate and inequitable federal funding for TCUs (tribal
colleges are the most poorly funded institutions of higher learning in
the United States compared to historically black colleges and
universities and state land-grant institutions) TCUs themselves help to
bridge the need gap by writing off an average of $100,000 in
uncollectable tuition costs annually. (Source: AIHEC).
    With so much unmet student need for funding and the trend TCUs are
seeing in enrollment growth by 23 percent over the past five years as
more students see a higher education as a path to self-subsistence and
a better life, the need will only increase. (Source: AIHEC).
Scholarships and programmatic support for the TCUs are the way to match
that need. Unmet need will only result in fewer students and lost
opportunities for Native people to become self-sufficient, providing
better lives for themselves, their families, and opportunities for
their entire communities.
Non-Financial Profile of Native Students Attending Tribal Colleges
    In addition to growing up and living in areas burdened with
disproportionate rates of poverty, tribal college students also face
other unique challenges which can interfere with their ability to
obtain a higher education.
    Many tribal college students travel staggering distances to attend
college. The average commute for a tribal college student is 30-100
miles one way (Source: AIHEC). And in rural reservation communities,
there is often no transportation system in place. When living in
poverty, a car (or money for gas) is another cost that makes attending
college impossible without financial assistance. Distance learning
might help fill the gap for students with transportation challenges,
but low bandwidth in many reservation communities and the fact that so
many Native people do not have computers in the home make this
unrealistic at present for many students and potential students.
(According to the Federal Communications Commission in 2011, American
Indian tribes could be the most underserved group of Americans in the
country, with only 68 percent having access to telephones and less than
10 percent to broadband. According to the FCC, the actual percentage,
based on anecdotal evidence, may be even lower, at just 5 to 8 percent.
By comparison, approximately 65 percent of all Americans use
broadband.)
    Tribal college students also have family commitments that create
financial need, such as children they care for, or elders. Although
this has become less of a concern as more students entering TCUs are
younger, it is always an issue in Native communities, where extended
families often live together. For the academic year 2011-2012, twenty-
nine percent of first-time TCU students were between the ages of 25 and
34, with 27 percent between the ages of 18 and 21, 18 percent between
the ages of 35 and 49, 17 percent between the ages of 22-24, 7 percent
between the ages of 50-64, 1 percent between the ages of 15-17, and 1
percent age 65 and greater. (Source: AIHEC). In addition, 59 percent of
all students (and 52 percent of first-time entering students) at tribal
colleges are the first in their families to attend college. (Source:
AIHEC).
    Tribal colleges are open admission institutions, no student is
turned away. This means that anywhere from a few to dozens of students
from the rural communities located on or near reservations attend TCUs.
As a result, tribal colleges serve a unique role as rural education
providers throughout many states in the Upper Midwest, Great Plains and
in the Southwest.
    Tribal college students' financial need is compounded by the social
issues they are confronted with, including the lack of role models,
identity and self-esteem issues rooted in historical trauma,
generational poverty and unemployment, and continued oppression.
    These issues are in turn compounded by issues of academic readiness
and lack of modern services in schools and Native communities,
including low college preparedness levels of Native youth (74 percent
require remedial math instruction and 50 percent requiring remedial
reading or writing), and inadequate funding for Title III student
support services, and the lack or scarcity of college counselors and
21st century counseling programs available to high school students in
Native communities. (Source: AIHEC).
How the American Indian College Fund Helps Fill the Gap
    The American Indian College Fund is the largest private provider of
scholarships to American Indian and Alaska Native (AIAN) students in
the United States. We attempt to fill the need gap by providing
desperately needed scholarships to tribal college students. We provide
scholarships by fundraising with private donors, including individuals,
corporations, and foundations who generously support our mission.
    In order to qualify for a scholarship with the American Indian
College Fund, students must meet the following minimum criteria: have
U.S. citizenship; be enrolled in an accredited tribal college or
university; be enrolled full-time enrollment is required for the Full
Circle Scholarship Program, but not for the TCU Scholarship Program; be
registered as a member of a federal or state recognized tribe, or a
descendant of at least one grandparent or parent who is an enrolled
tribal member (Alaska Natives may also use Native Corporation
membership); submit a completed on-line application; and have a minimum
cumulative grade point average of a 2.0 for the Full Circle Scholarship
Program (there is no grade point average requirement for the TCU
Scholarship Program).
    In the academic year 2012-13 the American Indian College Fund
funded 3831American Indian and Alaska Native students with an average
scholarship of $1,403 per recipient. The College Fund administered 226
scholarship programs that year. In sum total, in our 25 years the
American Indian College Fund has provided nearly 100,000 scholarships
totaling $78,000,000. (Source: American Indian College Fund).
    The total number of applications the American Indian College Fund
received for both Full Circle and TCU Scholarships since 2010 is as
follows (Source: American Indian College Fund):

------------------------------------------------------------------------
                     Full
           Full     Circle     Full
          Circle    program   Circle      TCU      Total    Unduplicated
  Year    program    non-     program   program     apps      count of
          tribal    tribal     total     apps    submitted   recipients
          college   college    apps
           apps      apps
------------------------------------------------------------------------
09-10         313        69       382      5056       5438        3484
10-11         525       500      1025      4957       5982        3529
11-12         467       658      1125      5314       6439        4218
12-13        1228      1452      2680      5900       8580        3831
13-14        1874      2296      4170      5462       9632         n/a
14-15        2040      2806      4846       n/a        n/a         n/a
------------------------------------------------------------------------
(2014-2015 data current as of June 1, 2014)

    While the main focus of the College Fund is to support tribal
college students, we also provide scholarships to AIAN students at
public and private colleges all across the nation. In the last 5 years
660 non-tribal college students have received scholarship awards
totaling over $8,400,000.
The Cobell Education Scholarship Fund
    In addition to providing scholarships through our partnerships with
private donors, the American Indian College Fund was named by the U.S.
Department of the Interior and the plaintiffs of Cobell v. Salazar to
administer the Cobell Education Scholarship Fund. Graduate student
scholarships will comprise 20 percent of the annual awards, and the
American Indian Graduate Center (AIGC) of Albuquerque, New Mexico, was
named by the U.S. Department of the Interior and the plaintiffs to
distribute the graduate student scholarships.
    The scholarship was created as part of the $3.4 billion Cobell
settlement (IndianTrust.com) through the vision and leadership of the
late Elouise Cobell, a member of the Blackfeet Nation in Montana, who
initiated a class action lawsuit in 1996 on behalf of American Indians
whose trust land funds had been mismanaged by the federal government on
behalf of individual Indian land owners for decades. Before her
passing, Cobell, the lead plaintiff in the case, said the set-aside of
funds from the settlement for a higher education would ``mean a great
deal. . .to the Indian youth whose dreams for a better life including
the possibility of one day attending college can now be realized.''
    The implementation agreement between the American Indian College
Fund, the Department of the Interior, and the plaintiffs was signed in
March 2014.
    To qualify for the scholarships, under the terms of the settlement
agreement, students must meet the following criteria: Be an enrolled
member of a federally recognized tribe or a direct descendant of a
federally recognized tribe and be attending an accredited post-
secondary vocational education at a vocational institution and is
seeking a certificate in a career program; or an accredited four-year
degree-granting public or private university and seeking an
undergraduate degree; or an accredited public or private institution
and seeking a graduate degree.
    A Board of Trustees has been named to manage the Cobell Education
Scholarship Fund. The first board meeting is scheduled June 17, 2014,
to be held in Denver, Colorado. Members of the Board of Trustees
include: Carla Fredericks, Three Affiliated Tribes, American Indian
College Fund representative; Turk Cobell, Blackfeet, plaintiffs'
representative; Alex Pearl, Chickasaw; plaintiffs' representative; Pam
Agoyo, Cochiti, Kewa, Ohkay Owingeh Pueblos; Department of Interior
representative; and Jean O'Brien, White Earth Ojibwe, Department of
Interior representative.
    The American Indian College Fund received an initial payment of
nearly $580,000 on April 22, 2014. Most of this payment will seed
administration of the Cobell Education Scholarship Fund and the
operations costs of the Cobell board of trustees. We hope to receive a
second payment to fund fall scholarships, and we will begin the full
scholarship cycle after fall 2014. Establishing an endowment will be
part of those efforts pending board of trustees' approval.
    A web site has been created for the Cobell Education Scholarship
Fund at www.ccobellscholarships.org where individuals can read news
about the settlement and the scholarship fund, link to application
portals for the scholarship, review the audited financials of the
American Indian College Fund, and read information about student
scholars after scholarships begin distribution.
Road Map for the Future
    As we see the numbers of Native students enrolling at tribal
colleges increasing, there is a growing need for scholarships and
funding for programs at the tribal colleges that impact student
success--while the unmet need continues for current tribal college
students.
    The American Indian College Fund's plan for the future is simple:
we want to educate 60 percent of American Indian and Alaska Native
people served by our tribal colleges and universities by 2025. With an
educated American Indian and Alaska Native citizenry dedicated to
working for change in their communities, we can transform Indian
Country from a landscape of desperation to places of aspiration,
inspiration, and imagination. This transformation contributes to a
better America, one where equity and social justice thrive, and where
diversity and identity are valued.
    The American Indian College Fund will implement a four-step plan to
provide students with financial access to a post-secondary education
and to support tribal college programs and initiatives focused on
student support so tribal college students succeed to positively impact
their families and their communities. In the past 25 years the American
Indian College Fund has distributed approximately $76,000,000 to
support TCU capacity-building and student success efforts at the tribal
colleges. Funding is also needed in this arena to ensure student
success.
    Step one of the plan includes funding the following programs to
prepare students for future success. Students in grades kindergarten-
fifth grade: early childhood education; Science, Technology, Education,
and Mathematics (STEM) programs and initiatives; literacy; and Native
language and cultural immersion. Students in sixth-twelfth grade: STEM
programs and initiatives; leadership and mentoring; cultural education
programs; learning labs; tutoring, study skills, and career planning;
and bridge programs including early college programs.
    Step two of the plan includes providing access to post-secondary
education, including career and skills advising; GED preparation;
college readiness and academic preparedness; financial support to make
postsecondary education affordable; and building partnerships with high
schools and community resources.
    Step three is to provide meaningful higher learning opportunities,
including academic, career, and technical education programs for a
variety of career paths and skill levels; integrating technology as a
resource for student learning and institutional advancement of student
success; cultural integration and place-based educational strategies,
including Native language; apprenticeships and internships; initiatives
to support student adaptation to higher education for success;
mentoring programs; leadership programs; fellowships and faculty
development; development of candidates for future professional
education; accreditation support; and partnerships and collaboration
with private entities for supportive, cutting-edge learning
opportunities.
    Step four is to provide support for meaningful employment for
tribal college graduates. Programs include counseling and support for
new or first-time employment; career advancement planning; career
centers; job search workshops and support; leadership programs;
mentoring; and follow-up with tribal college alumni to assess program
impact.
    As we move forward into our next 25 years, the College Fund will
strategically bring private sector dollars to the tribal colleges and
their students to support all areas of institutional development and
community outreach. The trust responsibility of the federal government
to provide equitable and high quality educational access and success
for AIAN is essential. We support the goals of AIHEC and the tribal
colleges to develop greater federal funding to support tribal college
student success in the following areas, particularly if sequestration
is re-instituted: (1) federal funding for TCU operations so they can
remain open and keep tuition low to provide student access to a higher
education; (2) funding for GED/ABE programs so students can complete
high school and continue their educations (on average, less than 50
percent of Native students graduate from high school each year in the
seven states with the highest percentage of American Indian and Alaska
Native students, according to The Civil Rights Project); (3) funding
for day care centers at the TCUs (which are currently subsidized by
about $250,000/year); and (4) funding for TCU student support services
that directly impact student success, retention, and graduation rates.
    Thank you for the opportunity to share testimony about the
scholarships and program support for tribal colleges and their
students.

    The Chairman. Thank you, Cheryl.
    Dr. Purce?

 STATEMENT OF THOMAS ``LES'' PURCE, PRESIDENT, EVERGREEN STATE
                            COLLEGE

    Dr. Purce. As a four-year interdisciplinary liberal arts
college, Evergreen has been a leader in the advancement of
higher education for American Indian students since the 1970s.
Evergreen works on a government-to-government basis with tribes
to jointly develop programs that respond to the needs of tribal
people in the Northwest.
    Our longhouse, our house of welcome, is an educational
cultural center that was built in cooperation with our Native
tribes and one of the first public buildings in the United
States with that mission.
    Evergreen offers three distinctive academic programs: a
masters of public administration in tribal governance which
began in 2002, which focuses on structures, processes and
issues specific to tribal governments, preparing students for a
wide range of jobs in tribal, Federal, State and local
government. Evergreen's MPA program is the first degree program
in this discipline. Our program has served as a model for other
programs that are developing in the United States.
    Second, our Native American and World Indigenous People
Studies program on our Evergreen campus works to apply
indigenous perspectives to Native studies and examines the
effect of rural American social values and structures on Native
history and contemporary life. The curriculum focuses on
vitality and diversity of Native nations and respects the
values of indigenous knowledge.
    Third, our undergraduate Reservation Based Community
Determined program is designed for place-bound students in
reservations in their communities. This program has been
reservation based from the beginning with most classes held on
the reservations in western Washington. By design, the
program's curriculum is guided by suggestions from tribal
leaders, tribal education staff, and other tribal specialists
to ensure that the program's content addresses significant
issues in Indian Country.
    Our work and leadership in the advancement of higher
education for Native American students is an evolving part of
the college. We have named a special assistant to the President
for tribal government relations to further strengthen the
government-to-government relations between Evergreen, tribes in
the United States and particularly in the Pacific Northwest.
    Evergreen is also building future opportunities through an
effort to expand our Longhouse Education Center. The college is
embarking on a phase two plan to support the expansion and
development of an indigenous arts campus and a launching of a
masters in fine arts in indigenous arts.
    In summary, the decisions we make today will have
implications long into the future. Now is the time at which, we
like to say at Evergreen, we must all dig deep and ensure that
there is a national commitment to advancing higher education
for American Indian students today and for the generations to
come. We must make an investment to ensure that American Indian
students have access to higher education, have resources
necessary to be successful and that they graduate with the
skills and credentials they need to make a difference for their
communities and for their families.
    The stakes are too high. We live in an increasingly complex
world. And the tribal leaders are challenged to respond to the
real impact of climate change and other threats to the
environment, to treaty sovereignty and other challenges. At the
same time, there are unprecedented opportunities through a
variety of the kinds of economic development, changing
technology, and the fastest growing demographic, Native youth.
Well-educated tribal members can help negotiate the changing
train on behalf of their communities.
    The landscape in higher education is changing quickly and
dramatically. The students in higher education and those who
are at our doorstep are more diverse racially, ethnically and
financially. If the United States is to be a competitive global
Nation, we must make sure that each student is able to reach
back and pull up the next generation.
    Thank you very much, Mr. Chair.
    [The prepared statement of Mr. Purce follows:]

Prepared Statement of Thomas ``Les'' Purce, President, Evergreen State
                                College
    Chairman Tester, Vice Chairman Barrasso, and members of the
Committee, thank you for the opportunity to testify this afternoon
about higher education for American Indian students.
    My name is Les Purce, and I am the President of The Evergreen State
College in Olympia, Washington. Since opening our doors in 1971,
Evergreen has established a national reputation for leadership in
developing innovative interdisciplinary, collaborative and team-taught
academic programs. We have a vibrant undergraduate program, three
graduate programs, and public service centers that constitute a unique
academic setting. Evergreen, the smallest public, baccalaureate
institution in Washington with nearly 4,400 students, values a student-
centered learning environment, a link between theory and practice, and
a multicultural community of diverse faculty, students and staff
working together.
    The vibrancy and leadership of Evergreen is clearly illustrated in
the College's unparalleled combination of academic and public service
programs, designed in partnership with Northwest tribes, to make a
lasting impact on education in Indian Country. Since the 1970s, with
the founding of the College, Evergreen has been a leader in the
advancement of higher education for American Indian students. The
College today embraces its Native student community of 6.1 percent--
which is more than twice the proportion of 2.5 percent Native student
across all public four-year colleges in Washington. An astounding 11.9
percent of all Evergreen graduate students are Native American,
compared to only 2.2 percent of graduate students attending public
universities statewide. The college's faculty is 6.5 percent Native, as
are 4.7 percent of the College's noninstructional staff.
    Evergreen's focuses on access to higher education for American
Indian student goes hand in hand with our commitment to student
success. American Indian undergraduate students experience an 81
percent fall-tofall retention rate, which is nearly identical to the
College's 82 percent retention rate for undergraduates overall.
    As stated by Bill Frank, Jr. (Nisqually), former member of the
Evergreen Board of Trustees, ``Evergreen is an institution of education
that conveys the lessons of the past to the leaders of tomorrow.
Through Native American and World Indigenous Peoples Studies, Evergreen
transcends the limits of education to reach out to people of all
backgrounds and beliefs.''
Evergreen's Native American Academic and Public Service Programs: Our
        History and the Present
    Our work and commitment to institutionalize the importance of
advancing higher education for Native American students in partnership
with tribal governments began in the early 1970s when the College was
founded. In keeping with Washington State's Centennial Accord,
Evergreen works on a government-to-government basis with tribes to
jointly develop programs that respond to the needs of tribal people in
the Northwest. Together these programs enable the college to continue
and expand upon its history of responding, in partnership, to the
educational needs of indigenous peoples.
    Evergreen's ``House of Welcome'' Longhouse and Education and
Cultural Center was the first building of its kind on a public campus
in the United States. Over the last forty years the Longhouse has
provided service and hospitality to students, the College, and the
surrounding Native communities. The Longhouse has created a home and
community base for artists and arts organizations throughout the United
States and around the Pacific Rim. Its mission is to promote indigenous
arts and cultures through education, cultural preservation, creative
expression and economic development through the Native Artists Grants
Programs, Native Artist Gatherings, Native Art Sales and Exhibitions,
Artist-in-Resident Program, Northwest Heritage Program and
International Indigenous Artists Exchange Program. Today the Longhouse
manages a database of more than 2,000 indigenous artists, art
organizations and arts supporters from four countries: the United
States, Canada, Australia and New Zealand.
    The spirit of the Longhouse is recreated on campus each day through
dedicated outreach in response to the needs of indigenous peoples
attending Evergreen. First Peoples Advising Services provides support
to assist students in achieving their academic and personal goals
through comprehensive academic, social and personal advising, referrals
to campus and community resources and community-building educational
events.
    Evergreen offers three distinct academic programs. The Master of
Public Administration (MPA) in Tribal Governance, which began in 2002,
focuses on structures, processes and issues specific to tribal
governments, preparing students for a wide range of jobs in tribal,
federal, state and local governments and nonprofit organizations.
Evergreen's MPA program is the first degree-granting program in this
discipline and our program has been modeled by others, such as the
University of Minnesota at Duluth.
    The Native American and World Indigenous Peoples (NAWIPS) studies,
an on-campus undergraduate program, applies indigenous perspectives to
Native Studies and examines the effects of European/American social
values and structures on Native history and contemporary life. NAWIPS
curriculum focuses on the vitality and diversity of Native nations, and
respects the value of indigenous knowledge. It examines the global
effects of colonialism, the unique treaty relationships between tribal
nations and settler governments, political decolonization and cultural
revitalization in the contemporary era, and the responsibilities of
non-Native neighbors and allies in this process. NAWIPS programs focus
on the indigenous peoples of the Pacific Northwest, the Americas and
the world.
    The undergraduate Reservation Based Community Determined program is
designed for place-bound students who are deeply connected to tribal
communities. The program has been ``reservation-based'' from the
beginning with most classes held on Indian reservations in western
Washington. By design, the program curriculum is guided by suggestions
from tribal leaders, tribal education staff, and other tribal
specialists (for example, Indian Child Welfare workers), to ensure that
program content addresses significant community issues. Hundreds of
students have earned their degrees through this program and gone on to
graduate school and various positions in tribal government, social
services, education, and other fields.
    In addition to these programs, students at Evergreen can work with
Native American faculty throughout the undergraduate curriculum (such
as in the Expressive Arts), and in graduate programs such as the Master
of Environmental Studies (MES) and Master in Teaching (MIT) programs.
In all Evergreen programs, Native American students, community members
and tribes have a dedicated place in higher education, and easy access
to technology and research services.
    Evergreen's academic and public service work is enhanced through
specific efforts to develop culturally relevant curriculum and teaching
resources in the form of case studies on key issues in Indian Country.
In partnership with the Northwest Indian College, Salish Kootenai
College, and Grays Harbor College, Evergreen initiated in 2006 the
Enduring Legacies Native Case Initiative. The goal is to develop and
widely disseminate culturally relevant curriculum and teaching. This
initiative is supported through the Lumina Foundation for Education,
the Bill and Melinda Gates Foundation and the National Science
Foundation.
The Future
    Our work and leadership in the advancement of higher education for
Native American students is not yet done, but an evolving part of the
College's identity. As the College continues to deepen our relationship
with Native American communities we have named a Special Assistant to
the President for Tribal Government Relations to further strengthen the
government-to-government relationships between Evergreen and tribes in
the United States, with particular emphasis on the Pacific Northwest.
In collaboration with The Evergreen State College administration, the
Longhouse, the Native Programs at Evergreen, and tribes, this position
provides leadership in formulating and strengthening tribal
relationships, initiatives and collaborative partnerships at Evergreen
through strategic planning and support for Native initiatives and
programs at Evergreen.
    Evergreen is also building future opportunities through efforts to
expand the Longhouse Education and Cultural Center. The College is
embarking on Phase II of a $7 million capital campaign to support new
program development and growth through the development of an Indigenous
Arts Campus and the launch of a Masters of Fine Arts in Indigenous Art.
    The Longhouse is currently in the process of continuing the design
and development of a one of a kind indigenous arts campus where the
art-making facilities and the surrounding campus are based on
indigenous architectural design and cultural concepts. Collaboratively
planned with Native artists, art scholars, tribal representatives,
elected officials and art service organizations, the facility will
allow the Longhouse to continue to serve as the focal point for
coordination and administration of the new arts campus.
    The Longhouse, with support from the Ford Foundation, has secured
$1 million to build two of the four envisioned art studios on
Evergreen's campus. The first, a carving studio in the shape of a
replica longhouse, opened in 2012. The second, a fiber arts studio, is
expected to open in 2016 and will pay tribute to the long-standing
relationships among Salish and Maori peoples.
    The Indigenous Arts Campus will provide a series of spaces to
foster vibrant culturally interconnected art-making for indigenous
peoples along the Pacific Rim. The new facilities will allow Evergreen
and the Longhouse to leverage the networks and creative potential of
the Longhouse's successful intergenerational programs, connect
programmatically with the initiatives of surrounding tribes, and
provide the opportunity for artists to work in media not readily
available to them at home while being mentored by master artists from
around the world. This vision will have far reaching economic and
cultural impacts for artists, tribes and numerous rural communities by
fostering significant professional development of emerging artists and
opening new markets for their work.
    Evergreen's Longhouse is also in the early stages of developing the
first Masters of Fine Arts in Indigenous Arts in the United States. The
program, to be launched for the 2016-2017 academic year, would provide
an arts education that is grounded in indigenous cultural values,
protocols, practices and forms of knowledge. In particular the degree
would develop innovative, student-centered approaches to Indigenous
Arts practice within a culturally affirming educational setting; affirm
the expertise and academic authority of indigenous artists and
scholars; and strategically align the Longhouse's public service
mission to promote indigenous arts and cultures with the academic
mission of the College.
In Summary
    The decisions we make today will have implications long into the
future. Now is the time as we would say at Evergreen to ``Dig Deep''
and ensure that there is a national commitment to advancing higher
education for American Indian students today and for generations to
come, in partnership and collaboration with tribes. We must make an
investment to ensure that American Indian students have access to
higher education, have the resources necessary to be successful, and
that they graduate with the skills and credentials they need to make a
difference for their communities and their families.
    The stakes are too high not to. We live in an increasingly complex
world, and tribal leaders are challenged to respond to the very real
impact of climate change and other threats to the environment, threats
to tribal sovereignty, and other challenges. At the same time there are
unprecedented opportunities through various kinds of economic
development, changing technologies and the fastest growing
demographic--Native youth. Well educated tribal members can help
negotiate the changing terrain on behalf of their communities.
    The landscape in higher education is changing quickly and
dramatically. The students in higher education and those at the
doorstep are more diverse racially, ethnically and financially. If the
United States is to be competitive globally well into the twenty-first
century we must make sure that no one is left behind and that each
student is able to reach behind and pull the next generation through.
    As stated by Vi Hilbert (1918-2008), Upper Skagit Elder and Daniel
J. Evans Chair Scholar (1995), ``When I first walked on that campus
(Evergreen), the beautiful thing that I felt there was the Spirit. The
Spirit said `Come. This is a place for people to hear what your
ancestors wanted you to pass on.''
    Thank you again for allowing me the opportunity to speak before
your Committee today.

    The Chairman. Almost to the second. Thank you, Dr. Purce.
    Mr. Monette?

STATEMENT OF MELVIN MONETTE, DIRECTOR OF GRADUATE FELLOWSHIPS,
                AMERICAN INDIAN GRADUATE CENTER

    Mr. Monette. Chairman Tester and members of the Committee,
thank you for this opportunity for the American Indian Graduate
Center to be here. On behalf of Sam Deloria, our Director, and
the board of directors, we appreciate the invitation.
    The American Indian Graduate Center is a 45 year old
national non-profit that has been serving American Indian and
Alaska Native graduate and professional students since our
inception. Among our diverse opportunities for funding, we
administer 40 annual BIE Loans or Service scholarships to
students across the Nation. The intent of this program is to
provide agencies with well-trained, highly-qualified
individuals to fill vacancies created by retirements and other
attrition.
    To date, we have funded 330 individuals who are either
continuing their education, working in intended areas, seeking
employment or have completed their required employment and are
remain employed with American Indian or Alaska Native serving
institutions or organizations. Additionally, AIGC manages
private and corporate scholarship funds for both undergrad and
graduate students. Our award winning program boasts high-level
Federal appointees, tribal leaders, published researchers,
large and small private business owners, some of your own
congressional staff and many community leaders among our
alumni. However, the numbers are small, and because we can
still count them, name them and know them, we know this is not
enough.
    For the most recent academic year, 2013-2014, the American
Indian Graduate Center funded 545 undergraduate, graduate and
professional level students. These students represent 149
federally-recognized tribes, attend schools in 47 States and
studied in 161 academic major areas. They have a combined unmet
need of $10,049,626 at the time they reported their financial
need.
    Besides membership in a federally-recognized tribe, AIGC
funds students no matter where they sit on the American Indian
identity spectrum. We are careful, as you should be, not to
stereotype American Indian students with a narrow model of
geographic isolation or culture as an impediment to successful
participation in higher education.
    Higher education is often a dream for many families. We
know that the system is broken, the pipeline is broken. We know
that finances alone are not enough to provide students with the
means for their success. We know that pipeline programs and
bridge programs need to be funded. We know that families need
access to bridge programs, programs that are required by many
institutions that families can't afford to get to, to stay in
and to participate in. We also know that oftentimes American
Indian student financial aid shows up much later than the
beginning of the semester, leaving our students fighting for
books, borrowing books or waiting until they get a book in
order to study and do the homework and falling far behind.
These are students who often are bringing their families with
them, looking for homes, looking for other opportunities, not
just for an academic opportunity for themselves. So they are in
need of much more than funding. They need their funding early
on.
    We know that programs that are funded through the Native-
serving non-tribal institution funds, student support services,
are vital. Our students look for one another, they look for
people on their campus who can understand them, help them and
just see them where they are at that point in time and to
connect them to tribal scholarships, to their tribes, to other
people in their community who know and have empathy with them.
So we call for those programs to be funded.
    While we are looking at other successful programs moving
from undergraduate to graduate programs, the American Indian
Law Center hosts the pre-law summer institute at the University
of New Mexico. We know that this program is highly successful.
For all students from that program who attend law school, 90
percent of them are successful. We believe that framework will
work in other disciplines. We would like to have you look at
that program and consider replicating it in the Department of
Education programs and other programs, HHS programs, medical
programs, and provide funding for such.
    Thank you.
    [The prepared statement of Mr. Monette follows:]

Prepared Statement of Melvin Monette, Director of Graduate Fellowships,
                    American Indian Graduate Center
    Chairman Tester, Vice Chairman Barrasso, and members of the
Committee, thank you for inviting the American Indian Graduate Center
(AIGC) to testify. I am Melvin Monette, Director of Graduate
Fellowships and Special Programs and a citizen of the Turtle Mountain
Band of Chippewa Indians. On behalf of Director Sam Deloria and AIGC, I
am grateful for this opportunity to provide testimony for the record on
``Examining Higher Education for American Indian Students,'' as part of
the Committee's Indian Education series. I would also like to thank the
Committee for hearing the collective call of tribes and Native
communities regarding the need to address the current state of Native
education. The renewed commitment of this Committee to focus on
improving all education systems serving Native students is critical as
we work together to ensure equitable educational opportunities.
    The American Indian Graduate Center, Inc. (AIGC) is the oldest and
largest provider of graduate and professional student scholarship
services in the United States. AIGC is a 45 year old, private, national
501(c)3 located in Albuquerque, New Mexico. We have managed the Bureau
of Indian Education (BIE) Special Higher Education Programs contract to
provide scholarships and fellowships to over 16,000 American Indian and
Alaska Native (AIAN) full-time and degree-seeking graduate- and
professional-level students who are members of federally-recognized
tribes studying any major of choice at any US accredited institution in
the United States.
    AIGC is also the provider of 40 annual BIE Loans for Service to
AIAN graduate- and professional-level students who intend to seek
employment primarily with the BIE, Bureau of Indian Affairs (BIA) or
other federal agencies serving the AIAN communities. The intent is to
provide agencies with well trained, highly qualified individuals to
fill vacancies created by retirements and other attrition. To date, we
have funded 330 individuals who are either continuing their education,
working in intended areas, seeking employment or have completed the
required employment and remain employed in AIAN serving organizations.
Additionally, AIGC manages private and corporate scholarship funds for
both undergraduate and graduate students. The award winning program
boasts high-level federal appointees, tribal leaders, published
researchers, large and small private business owners, some of your own
congressional staff and many community leaders, among our alumni. Our
sister program, AIGC Scholars is the American Indian administrative
partner for the Gates Millennium Scholars Program. AIGC and AIGC
Scholars collaborate in student recruitment, outreach, student services
and professional development for those institutions serving Native
students.
    For the most recent academic year, 2013-2014, AIGC funded 545
undergraduate, graduate and professional level AIAN students: 106
Doctoral, 284 Masters, and 145 Professional. These students represented
149 federally-recognized tribes, attend school in 47 states, studied in
161 major areas, and have a combined unmet need of $10,049,626 at time
of reporting financial need. Besides membership in a federally-
recognized tribe, AIGC funds students regardless of where they sit on
the American Indian identity spectrum. We are careful, as you should
be, not to stereotype Indian students with a narrow model of geographic
isolation or culture as an impediment to successful participation. All
Native students are deserving of AIGC assistance and capable of the
academic success we expect of them.
American Indian Higher Education Inequitable Outcomes
    Since 1977, American Indian and Alaska Natives have more than
tripled in the number of baccalaureate degrees conferred each year;
however, comparing the percentage distribution of degrees conferred to
all other races, AIAN's have not even doubled. While we are enjoying
more numbers, comparatively we continue to represent less than 1
percent of all baccalaureate degrees conferred. Unfortunately, the
collective and average federal student loan data for AIAN's is
statistically insignificant except for the 1999-2000 reporting year
which indicates a $22,000 average loan debt for 18-24 year-old college
seniors. This report does not tell us the average debt of AIAN students
who have a tendency to be older than the average traditional college
student. (Digest of Education Statistics, 2013 Tables and Figures)
    Since 1977, AIAN's have more than tripled in the number of Master's
degrees conferred each year (1018 to 3674); however, comparing the
percentage distribution of degrees conferred to all other races, AIAN's
have only doubled. While we are enjoying more numbers, comparatively we
continue to represent less than 1 percent of all master's degrees
conferred. The Fields of Study most pursued and completed by AIAN
Master's level students are Education, Business, Health Professions,
Public Administration and Social Services, Psychology, and Social
Sciences and History. (Digest of Education Statistics, 2013 Tables and
Figures)
    Since 1977, AIAN's have more than tripled in the number of Doctoral
degrees conferred each (240 to 913); however, comparing the percentage
distribution of degrees conferred to all other races, AIAN's have only
doubled, in fact we experienced a .1 percent drop from 2011 to 2012.
While we enjoy more numbers, comparatively we continue to represent
less than 1 percent of all Doctorate degrees conferred. The Fields of
Study most pursued and completed by AIAN Doctorate level students are
Health Professions and Related Programs, Legal Professions and Studies,
Education, Psychology and Biological and Biomedical Sciences. In 2011,
AIAN's made up .4 percent of all full-time instructional faculty. Since
2007, the percentage has remained the same, while the number has
increased less than 200 from 3340 to 3529. Less than 600 AIAN's are
full professors (.3 percent of the total). Comparatively these faculty
earn less, are younger, and have a total household income less than
their non-Native peers. (Digest of Education Statistics, 2012 and 2013
Tables and Figures)
    For the Academic Years 2011 and 2012 AIAN's received 662 and 618
selected Professional degrees, respectively. Slightly more than half
(53 percent) of those degrees (688) are Law (LLB or JD) and another 16
percent (214) are MD's. As a collective, health sciences make up 540
(42 percent) of these degrees. The selected professional degrees
include dentistry (60), medicine (214), optometry (7), osteopathic
medicine (53), pharmacy (120), podiatry or podiatric medicine (15),
veterinary medicine (40), chiropractic (31), law (688) and theology
(72). (Digest of Education Statistics, 2013 Tables and Figures)
    At all postsecondary levels, including institutional employment,
American Indian and Alaska Native people continue to lag behind their
non-Native peers. While American Indians and Alaska Natives represent
1.7 percent of all people in the US (2010 US Census), we continue to
represent less than 1 percent of all levels of postsecondary students.
We call for funding of programs to create equity for citizens of
federally-recognized tribes in the United States. Our recommendations
include replication of the American Indian Law Center's Pre-Law Summer
Institute (PLSI) for other fields of study. This program has been in
existence since 1967 and has over 90 percent rate of completion for
those participants who enter law school. The aforementioned
professional degree data is our proof that such programs work; it is no
accident that Law degrees are more than double those of other
professional fields. This program doesn't assume the definition of
``Indian'' student includes substandard; rather, it assumes all are
capable of succeeding in law school and prepares students for the rigor
of such by providing them with the requisite reading, study and writing
skills necessary to succeed in Law School. The program focus is
industry specific, but the frameworks are replicable to most any
professional program.
The Broken Pipeline to Higher Education
    We are all aware of the dismal state of Native education partly due
to lack of preparation of the professionals who serve Native students.
There is an overrepresentation of Indian children in Special Education
because schools don't know where to place students coming from low
performing schools. We need to increase the capacity and development of
Title VII teachers to work on a tutorial basis, among other areas of
need, to bring these children up to par with their peers. Native
students in tribal, BIE and large urban centers continue to lack access
to Advanced Placement (AP) and Post-Secondary Education Opportunity
(PSEO) courses which have been proven to impact college readiness. If
AP and PSEO are proven to prepare students for the rigors of college,
why can't the regular classroom teachers be challenged to create
rigorous coursework for all students? High School counselors serving
AIAN students spend more time creating schedules and performing
disciplinary actions than they do providing college access information.
As a former college recruiter, I experienced many tribal, BIE and other
rural Native serving schools deny all students access to information
about colleges. The message that any amount of higher education is
valuable is not getting through to our students. Our students are faced
with seemingly unmovable obstacles as the numbers show.

  <bullet> 23 percent of American Indian and Alaska Native students
        received special education service in 9th grade in 2009. The
        next highest group is White students at 10 .7 percent. Clearly,
        we need to make an impact in k-8 education by adequately
        preparing teachers to work in Native communities.

  <bullet> 31 percent of American Indian and Alaska Native students
        were enrolled in high-poverty public schools in the academic
        year 2010-2011, compared to 6 percent of their white peers.

  <bullet> 23 percent of American Indian and Alaska Native students
        attend schools that are comprised of 50 percent or more
        American Indian and Alaska Native peers (16 percent of American
        Indian and Alaska Native students attend schools that are
        comprised of 75 percent or more American Indian and Alaska
        Native peers).

  <bullet> Fewer American Indian and Alaska Native students attend high
        schools that offer AP or IB courses than all other groups.

  <bullet> 29 percent of AIAN 9th graders' high school counselors
        report the primary goal of the school counseling program is to
        help students plan and prepare for postsecondary education.
        This is compared to 41 percent of Hispanic students'
        counselors--the next highest group. By 9th grade, 34 percent of
        AIAN males and 21 percent of AIAN females have been suspended
        or expelled; second only to black students with 42 percent male
        and 24 percent female. On all indicators, AIAN students
        reported the highest percentage of 9th grade students who had
        ever been retained a grade. The highest. Second only to black
        students, 44 percent of AIAN students' parents were contacted
        by the school about a child's problem behavior at school and 28
        percent had been suspended or expelled. 43 percent, the highest
        of all races, of AIAN students' parents were contacted about
        poor attendance and 50 percent were contacted about poor
        academic performance. On both measures, AIAN students
        experienced the highest percentages.

  <bullet> 87 percent of AIAN students did not participate in math and
        science related school-sponsored activities.

  <bullet> Second only to Hispanic students (15.1 percent), AIAN
        students dropped out at a rate of 12.4 percent in 2010.

  <bullet> Less than 1 percent differentiates the graduate rates of
        Black and AIAN students; both group experience less than 65
        percent graduation rates.

  <bullet> With the highest percentage of any group at 28.5 percent
        AIAN students expect to complete high school or less. Another
        10.9 percent expect to complete some college.

  <bullet> When it comes to an expectation to complete a bachelor's
        degree, AIAN 9th grade students fall to the bottom of the list
        at 11.8 percent while 26 percent expect to complete a graduate
        or professional degree.

  <bullet> Fairly equal with their peers, 22 percent of AIAN students
        don't know what they want to do post-high school. Native
        teenagers are ``normal'' when it comes to being asked questions
        about their future.

  <bullet> American Indian and Alaska Native students take either the
        SAT or ACT at the lowest rate of all groups--68 percent.

  <bullet> The only group below the 90th percentile, 87.4 percent of
        AIAN seniors in 2004 planned to continue their education after
        high school. Of that group 13 percent applied to only one
        college while only 34.4 percent applied to 2 or more colleges.
        When it comes to 5 or more colleges, the numbers for AIAN
        students was statistically insignificant.

    This profusion of disparities for AIAN k-12 students is well
documented. The relationship to higher education is a definite lack of
adequate preparation for postsecondary education. How can we expect any
student to persist who begins behind from the onset? One proposal might
include summer enrichment and higher education preparation programs
that provide life-skills training necessary to navigate life after high
school. Another might include supporting mentoring and internship
opportunities at the local level through federally funded projects
which provide meaningful experiences necessary for individuals to make
educational and career choices. Access to individuals who have
experienced and completed college provides positive mentorship for
students.
    Only 27 percent of AIAN students reported participation in college
preparatory and awareness programs. We must fund federally supported
college readiness programs that are proven to work for Indian students.
Mandatory summer bridge programs are only effective if students and
families have the financial means to attend and engage in them. Monies
such as the grants to TCU's and Native American Serving Non-Tribal
Institutions must include specific set-asides for access to these
programs. Additional funds must be appropriated to those institutions
serving a smaller percentage, yet a critical mass, numerically, to
support AIAN and low-income students attendance at the programs that we
know work for all students with the economic means to attend.
    Native students have the least access to counselors, family members
and online resources to plan for higher education. We know that
President Obama's Broadband Access initiatives are providing access to
more rural and tribal communities; however, as more and more American
Indian and Alaska Native students attend online education forums, this
community level broadband is already overtaxed. More efforts must be
put behind increasing household access for Native families to research
post-secondary opportunities and to complete coursework in timely
manners. It is reported that in 2006, a reflective study of the 2004
graduating class found that AIAN students applied to college at the
lowest rate, 75.2 percent--and this is out of the percent that
graduated. 65.4 percent of this group applied for financial aid.
Financial Aid
    Again, for the most recent academic year, 2013-2014, AIGC funded
545 undergraduate, graduate and professional level AIAN students: 106
Doctoral, 284 Masters, and 145 Professional. These students represented
149 federally-recognized tribes, attend school in 47 states, studied in
161 major areas, and have a combined unmet need of $10,049,626 at time
of reporting financial need.
    With respect to financial aid, for all levels of higher education,
for students who are already behind their peers in academics and
socialization into college or graduate school, their financial aid
package has to be supported. The BIA must release tribal scholarship
funds for distribution much earlier to meet the needs of incoming
students. Students contact AIGC, regularly, to request assistance for
books, supplies, housing and other items needed for immediate
engagement in school. Releasing tribal education dollars at the
critical starting point for students will go a long way toward
persistence. When students don't have to play catch up, weeks into the
semester, with their readings and other assignments, they are able to
seek, early in the term, any other support needed to remain caught up
with all work. AIGC and AICF cannot provide this funding. These
students are not only attending classes. Many AIAN students that we
serve are moving children and families to new schools, locating
accessible housing, maneuvering new health care systems, trying to find
other resources and navigating a new environment; all while daily,
trying to work with tribes, AIGC, financial aid offices and business
offices to remain in school while waiting for the tuition payment to
arrive without taking out unnecessarily high amounts of student loans.
    Tribes cannot provide this alone. Institutions cannot be
responsible to make up the difference. We need a collective. There is a
wealth of expertise, within the Department of Education's Federal
Student Aid program, that can provide outreach to Indian communities.
Allocation of funds for such positions is greatly needed.
    We recommend the following:

        1.  Increase funding for research opportunities for Natives in
        graduate programs to provide true fellowships to post-secondary
        institutions for Native students without requiring them to
        agree to ``return home'' or ``give back'' as part of their
        funding. It is not expected of other groups and it's unfair, if
        not inequitable, to expect Native people to ``return home'' or
        ``give back''. The reality is that an extremely high percentage
        of all graduates work at all levels of public service in some
        capacity. An educated and employed Native professional is just
        as likely to provide for their ``community'' as any other
        educated professional. By providing institutions the financial
        assistance to recruit and retain top graduate students, this
        provision would create equitable access to highly-selective and
        competitive research institutions where Natives are
        statistically under-represented.

        2.  Include Native students receiving BIE loan for service
        program money, DOE discretionary grant assistance and other
        similar programs in the ``non-compete'' clauses for federal
        positions.
          a. VISTA has a one (1) year non-compete status for federal
        positions.

        3.  Include Tribal Citizenship in demographic collections for
        higher education--this would ensure that money intended for
        tribal citizens is used to fund tribal citizens. Additionally,
        this provides tribes, the BIE and DOE with true numbers of
        tribal citizens being served at all levels of education.
        Collecting ``citizenship'' status versus ``ethnicity''
        strengthens data, shifts the focus from institutions boasting
        self-identified numbers to those institutions with fewer
        numbers but greater need. As an added bonus, tribes will have
        access to true data and information about their citizens to
        report return on investment numbers.

        4.  Either expand the definition of Native American Serving
        Non-Tribal Institutions to include those institutions with a
        specific number of Native citizens versus a percentage of the
        total or provide similar funds to institutions with a critical
        number of Native citizens. Reauthorize and reallocate funds for
        this program, especially in the mandatory funding category--
        Native students shouldn't be subject to the whims of grant
        funding. Research tells us that some students benefit from the
        services the NASNTI program intends to provide. There have been
        no new grantees since 2011.

        5.  Expand FERPA to include Tribal Education Departments as
        they are Local Education Agency responsible for reporting data
        on their citizens. This provision will allow tribal education
        departments to more effectively align tribal resources with
        community needs.

        6.  Continue to press the FCC on issues of Broadband access for
        tribal communities. The reality is that while broadband access
        is increasing for tribal communities' economic centers, it is
        not reaching citizens who reside in more rural areas. With the
        increased interest of Native students in online education, be
        it for-profit or non-profit institutions, broadband access is
        critical to the learning experience for these students.

        7.  Online Education Institutions. While many non-profit
        institutions are creating online programs that are more
        academically rigorous and will better prepare Native students
        for employment in their communities, for-profit institutions
        continue to prey on Native communities with their assumptions
        that Native students have access to unlimited funding.
        Anecdotally, we hear story after story from Native graduates
        that they have student loans far exceeding that of their peers
        who attended traditional institutions. We would like to call on
        Federal Student Aid to provide data on Native students in these
        institutions in comparison to Native students in all
        institutions. Additionally, we call on Federal Student Aid to
        provide this information for all levels of higher education.

        8.  National programs like AILC and AIGC can be partners in the
        creation of college and graduate school preparation programs
        that work. We would like to offer our expertise, national
        outreach and networks, and collective alumni experiences to
        work with the Departments of Educations, Interior, and Health
        and Human Services in creating frameworks for model programs at
        all levels. The proven program strategies of Know Before You
        Go, PreLaw Summer Institute and longer summer bridge
        programming will impact the persistence rates for Native
        students nationally.

    This testimony is intended for higher education; however, we would
be remiss in our duties if we didn't remind the SCIA that native
learners in Indian country are failing, in part, due to a federal
system that is failing them. Construction needs in BIE and tribal grant
schools are embarrassingly high and are systemically necessary. More
must be done to reduce the administrative costs of managing
construction grants to increase the direct funding to these schools. We
can cite research about the impact of asbestos, black mold, failing
heating and cooling systems, exposed wiring, broken pipes and dismal
aesthetics on classroom learning, but it's time to move beyond Native
communities proving the need to the BIE being given the tools (funding)
necessary to address those needs. Then, we must address the need for
highly qualified teachers' housing and pay in these remote communities.
Native students deserve educational professionals who are dedicated to
their community rather than Teach for America-like programs providing
``saviors'' to Indian country.
    Congress and federal agencies should fund Native education programs
that strengthen tribal self-determination, such as tribal education
agencies, and ensure resources are appropriated to the BIE to address
student concerns and needed systemic changes. To start, the Department
of the Interior should transfer budget authority from the BIA to the
BIE to increase its efficiency and effectiveness by decreasing the
bureaucracy inhibiting funds from positively impacting Native students
and tribal self-determination.
    As a result of BIA authority over the BIE budget, the BIE is often
low in priority when compared to other programs. Recently, internal BIA
FY 2014 Operating Plan reduced BIE higher education scholarships. While
the reduced lines were under tribal priority allocations, such
reductions were not authorized by tribal leaders but were a result of
internal redistributions in the agency. Although the reductions are
small as compared to the overall increase in the BIA budgets after
Congress postponed sequestration, rescissions without appropriate
consultation are unacceptable. Providing the BIE the ability to develop
its own budget would ensure the BIA cannot reallocate funds from the
BIE as it would be a separate Bureau with its own budget authority.
    Tribal Colleges serve 9 percent of Native learners in higher
education. While that number may be low by comparison to their
mainstream counterparts, the TCU students become the work-force for
their communities in larger percentages than the latter group. The BIA,
Department of Interior and all other agencies must work together to
examine barriers to economic development on reservations. While the
rest of America is working on economic recovery, Indian country is
still working on development. Billions of dollars are spent to aid
developing countries while tribal funds continue to be cut. We must
remove barriers, create opportunities, and provide technical assistance
to tribes and individuals wanting to do business in their own
communities.
Conclusion
    AIGC appreciates the continued support of the Senate Committee on
Indian Affairs and we look forward to working with its members under
your leadership. We share your commitment to Native Higher Education to
ensure all AIAN serving post-secondary institutions are effective at
helping our students to persist to the fullest desired education level.
To attain parity, there must be a collaboration among all entities at
all levels--tribal, federal, state, local with community based
organizations' input and inclusion of post-secondary institution
leadership. Once again, thank you for this opportunity.

    The Chairman. Thank you for your testimony and thank you
for ripping through it. I very much appreciate it.
    We have a choice here, and the Senate gets pretty wild when
people start voting. We have two votes. And I don't what your
schedules are. We can submit our questions for the record, and
I think Senator Heitkamp is going to do that anyway. Or I could
come back at about a quarter to 5 o'clock if the two votes, if
we get through this first vote and I can vote again and be back
here by about a quarter to 5 o'clock.
    I have a conflict at 5:10. So if you guys want to stick
around, I will come back and fire questions at you for about 15
or 20 minutes. If you'd rather just have us submit them in
writing and you can go wherever you want to go to have a good
meal tonight, we can do that. So the question is, a good
chairman would just dictate it. Some of you have traveled a
long way. If you want to have questions verbally in the record
answered, we can do that. If not, it would probably be easier
to submit them in writing for the record. Dr. Purce?
    Dr. Purce. I would be glad to have them submitted in
writing. I have to catch a bird back to Seattle to meet with my
bosses tomorrow morning in Evergreen.
    The Chairman. You know what, we don't want you to get
fired. Is that okay with the rest of you, if we just submit
them in writing?
    Senator Heitkamp. Mr. Chairman, can I just ask Mr. Monette
to extend my greetings to Sam. He is a great Indian leader and
he has been in Indian education, he is a dear friend. So I want
you to know that, tell him he is still in the hunt and still in
the fight and so am I. Maybe someday, we will get it done.
    The Chairman. That is what we will do, we will put
questions in writing. I just want to say one thing before you
go. Thank you for the work that each and every one of you do.
It is critically important. I think the Department can learn a
lot from your on the ground experiences. So if we can help be a
conduit in that, we certainly will.
    As I look at the testimony, whether it is affordability or
whether it is actually getting the job done, you guys are top
flight in my book. So I just want to thank you all for what you
do and how you do it and the success you have had, because you
are going to have much more success in the future. Hopefully we
can replicate that success in other places around the Country.
    Thank you very, very much.
    With that, I want to thank the witnesses again today, and
the record will remain open for two weeks from today. With
that, this hearing is adjourned.
    [Whereupon, at 4:13 p.m., the hearing was adjourned.]
                            A P P E N D I X

 Prepared Statement of the National Indian Education Association (NIEA)
    Chairman Tester, Vice Chairman Barrasso, and members of the
Committee, tribal leaders and Native advocates have consistently listed
education as a top priority for our communities. As such, the National
Indian Education Association (NIEA) is excited that the Senate
Committee on Indian Affairs has heard the collective call and is
working to highlight the condition of Native education across all grade
levels in order to find solutions to persisting problems. As NIEA and
Native education stakeholders have stated for years, equal educational
opportunities from early to higher education is critical to the future
of tribal nations and Native communities. The renewed commitment of
this Committee and its focus on improving all education systems serving
Native students is critical. As part of our continuing partnership to
ensure equitable educational opportunities for Native students, we are
glad to provide this testimony regarding ``Indian Education: Examining
Higher Education for American Indian Students'' for the congressional
record.
    NIEA, founded in 1969, is the most inclusive Native organization in
the country representing Native students, educators, families,
communities, and tribes. NIEA's mission is to advance comprehensive
educational opportunities for all American Indians, Alaska Natives, and
Native Hawaiians throughout the United States. From communities in
Hawaii, to tribal reservations across the continental U.S., to villages
in Alaska and urban communities in major cities, NIEA has the most
reach of any Native education organization in the country. By serving
as the critical link between our communities and education
institutions--such as public and private universities, community
colleges, and tribal colleges and universities (TCUs)--NIEA hopes the
Committee will take our testimony into consideration as you address
concerns in higher education.
Native Education Crisis Due to Federal Mismanagement
    As all of us realize, Native education is in a state of emergency
partly due to the inability of the Federal Government to uphold its
trust responsibility. Native students lag behind their peers on every
educational indicator, from academic achievement to high school and
college graduation rates. In 2010, only 1 in 4 Native high school
graduates who took the ACT scored at the college-ready level in math,
and only one-third in reading. In the same year, more than half of the
majority students in high school tested at college-ready levels,
illustrating the persistent readiness gap among Native and non-Native
students. As Native students leave high school ill prepared for higher
education, remediation or academic failure often become commonplace for
our students. In the last decade, only 52 percent of Native students
enrolled in higher education immediately after high school and fewer
than 40 percent of those students graduated with a bachelor's degree in
six years. Nearly 62 percent of White students graduated within six
years. In addition to the shockingly low number of Native college
graduates that this percentage represents, the disparity among Natives
and non-Native students illustrates the continued lack of college
preparedness experienced by Native populations.
Native Student Demographics Snapshot \1\
---------------------------------------------------------------------------
    \1\ National Center for Education Statistics, Institute of
Education Sciences, United States Department of Education.National
Indian Education Study. 2011 (NCES 2012-466). http://nces.ed.gov/
nationsreportcard/nies/

  <bullet> In 2012, 17 percent of Native students age 25 and over held
        at least a bachelor's degree in comparison to 33 percent of
---------------------------------------------------------------------------
        White students.

  <bullet> In 2012, 6 percent of Native students held an advanced
        graduate degree (i.e., M.A., M.S., Ph.D., M.D., or J.D), as
        compared to 12 percent of the White population.

  <bullet> The 2010 Census found that only 65,356 Natives ages 25 years
        and older had a graduate or professional degree.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

The Trust Responsibility to Native Education
    Since its inception, NIEA's work has centered on reversing these
negative trends, a feat that is possible only if the Federal Government
upholds its trust responsibility. Established through treaties, federal
law, and U.S. Supreme Court decisions, this relationship includes a
fiduciary obligation to provide parity in access and equal resources to
all American Indian and Alaska Native students, regardless of where
they attend school. With equal educational opportunity, our future
generations will be prepared for academic achievement and consequently,
success in college and careers.
    The Federal Government's trust corpus in the field of Indian
education is a shared trust between the Administration and Congress for
federally-recognized Indian tribes. To the extent that measurable trust
standards in Indian education can be evaluated, NIEA suggests this
Committee refer to the government's own studies encompassing Native
test scores, treaty-based appropriation decreases, and Government
Accountability Office (GAO) Reports, among other reports, which
illustrate the continued inability of the federal government via the
BIE to uphold the trust responsibility.
NIEA 2014 Postsecondary Education Recommendations
I. Create Equity in Higher Education to Fulfill Trust Obligations
    NIEA requests this Committee work with Native-serving postsecondary
institutions to increase the educational attainment rate for Native
students. This Committee should ensure equity in access to higher
education resources and institutions in policy and legislation like the
Higher Education Act (HEA) reauthorization. This Committee should also
work with the Senate Health, Education, Labor, and Pensions Committee
as they develop policy priorities to encourage and strengthen tribal-
state partnerships in Native education.
    For example, expanding adequate resources for Indian Education
Professional Development Grants is necessary to meet training needs and
increase retention rates among Native teachers, administrators, and
education leaders in reservation schools, as well as the surrounding
schools with high Native populations. There should be more
opportunities for higher education partnerships with Regional Education
Laboratories (RELs) in order to facilitate and collect data regarding
Native students. Collaborative opportunities should also include
community colleges and universities that serve high numbers of Native
students. Such partnerships should assess factors, such as total cost
of attendance, debt burden on graduation, job or graduate school
placement rate, etc, as they often critically affect a student's
ability to thrive in college and beyond.
    Competitive Science, Technology, Engineering, and Mathematics
(STEM) undergraduate programs for Native students should be developed
to meet 21st Century workforce needs. Native students require increased
resources across all Native-serving institutions (public, private,
TCU), so funds are available in areas such as capital financing,
master's degree development, and STEM programs. Increasing competitive
grant competitions for Minority Science and Engineering programs to
include all institutions, not only selected groups, would facilitate
increased access to resources.
II. Increase Retention Rates Among Native Students
    The Federal Government should provide colleges and universities
adequate resources to increase retention rates among Native students.
As successful federal investments, TRiO programs, such as Upward Bound
and Student Support Services, illustrate the ability to positively
impact retention when support is appropriated. These programs provide
critical academic support in higher education to assist colleges and
universities in retaining vulnerable students and increase graduation
and preparedness for a student's post-graduate career.
    Unfortunately, the Federal Government reduced critical TRiO
programmatic funding for Upward Bound and Talent Search during
sequestration, which equated to a $17,500 cut from each program per
year in just a single institution. This is reflective of more expansive
reductions nationwide. While Congress postponed sequestration, we
request that future reductions as mandated under the Budget Control Act
be replaced permanently to avoid funding cuts to our most vulnerable
students. Programmatic ineffectiveness in serving at-risk students is
only exacerbated when already strained programs are required to serve
more students with equal or reduced budgets.
    Further, need-based financial aid programs should be expanded to
provide year-round assistance, so that available resources cover summer
course sessions. Since Native students are more likely to require
remedial course work and are the least likely to graduate from
college--with only 15 percent of those entering college earning a
bachelor's degree within six years--summer course options are
particularly important for Native students. Moreover, the inability to
graduate on time often increases the student's financial burden.
Through funding for expanding summer course options, Native students
will have more opportunity to finish college in four years and graduate
with less student loan debt.
III. Support and Strengthen Native Language and Culture
    Similar to elementary and secondary education systems, it is
critical that higher education institutions have the ability to partner
and collaborate with local tribes and Native education stakeholders.
This would support cultural and linguistic initiatives before Native
students enter and as they attend college. Tribes understand the needs
of their children best and can help higher education institutions
ensure a collegiate education is not only respectful to their Native
students but also engages students to become future leaders in Native
communities.
    Fort Lewis College in Durango, Colorado, provides a laudable
example of such a partnership. The college, on average, has 900 Native
students from over 140 federally recognized tribes each semester.
Through the school's collaboration with tribal communities, it works to
strengthen the Native culture of its students from matriculation
through graduation to their entrance into the job market. At Fort Lewis
College, programs and classes offer Native students the ability to
strengthen their collective Native culture through the Native American
Center, the Native American Honor Society, and the American Indian
Business Leaders Organization, as well as the Elder-In-Residence
program. This emphasis on academic and cultural support has made Fort
Lewis College one of the top public institutions in the country where
Native students excel and graduate.
    Yet, many institutions across the country do not have the resources
to provide a support system like that of Fort Lewis College.
Postsecondary institutions should have the resources and political
support to graduate more students who understand Native cultural and
linguistic traditions. Native language revitalization and preservation
is a critical priority for tribes and Native communities because
language preservation goes to the heart of our identity. This Committee
should work to provide resources for college students to become
educators and leaders who understand their local Native identity. We
also request that this Committee work to create a means for providing
debt repayment options, adequate housing, and other incentives to
degree-holding Native educators and students who wish to return to
their communities. Because jobs are often inadequate in a Native
student's community due to geographical isolation and small, rural
markets, we request the Committee increase incentives for Native
teachers to return to Indian Country and reinvest their talents and
cultural understanding among their fellow tribal citizens.
IV. Professional Development for Student Success
    We request this Committee increase and expand available
professional development opportunities for Native educators. NIEA
submitted draft language last year to expand the Department of
Education's (ED) Office of Indian Education (OIE) Indian Professional
Development program. This expansion would support Native students
pursuing doctoral degrees. While current law provides training to
assist qualified Native individuals to become traditional K-12 teachers
and administrators, educators and administrators in higher education
institutions, teacher aides, social workers, and ancillary educational
support, this request, as consistent with NIEA Resolution 2012-4, would
grant funds to support and train Native individuals to obtain
postsecondary masters and doctoral degrees.
    To help students achieve, Native communities need certified
educators who have the local, cultural understanding and knowledge to
support our young generations. Native-serving higher education
institutions, such as tribal colleges and universities and non-tribal
Native-serving institutions are committed to building a Native-speaking
teacher workforce and stress culturally and developmentally-appropriate
pedagogy that embeds community values and tribal culture. The
commitments and strategies are working, but as described above, there
must also be increased access to resources and education programs in
order to help Native students become educators. In many locations,
there is the will, but there are not enough certified Native language
or culture teachers. We need this Committee to work with Congress and
the Administration to stand behind TCUs and other Native-serving
postsecondary institutions by increasing their ability to support
Native teacher preparation and Native student retention and graduation.
Conclusion
    NIEA appreciates the continued support of this Committee, and we
look forward to working closely with its members to support our
students. Strengthening our partnership will ensure all Native-serving
schools, from pre-schools to TCUs, are as effective as possible. To
achieve success, there must be collaboration among all entities and at
all levels--tribal, federal, state, and local--that touch a Native
child's life. We particularly appreciate this 2014 education series
because confronting the challenges facing our Native students cannot be
approached through one facet of the education system at a time. Only by
working with all stakeholders in all education systems will we increase
our students' preparedness for success. Once again, thank you for this
opportunity.
                                 ______

   Prepared Statement of Maggie L. George, Ph.D., President of Dine
                                College
Introduction
    Good afternoon Chairman Tester, Vice Chairman Barrasso, and members
of the Committee. Thank you for including American Indian Higher
Education as part of your Indian Education Series. Originally named
Navajo Community College, Dine College is a public institution of
higher education first chartered by the Navajo Nation in 1968. The
educational philosophy of Dine College is Sa'ah Naaghai Bik'eh Hoozhoon
(SNBH), the Dine traditional paradigm for understanding all living
systems. SNHB is applied in all academic and student support programs
to advance quality student learning while maintaining a meaningful
connection to traditional Navajo values and sensibilities. SNBH has
played an important role in the development and success of Dine
College.
    From inception, Dine College continues to be at the forefront of
American Indian Higher Education. Over the last three years, Dine
College has focused its efforts on Student Success and Capacity
Building. Under Student Success, the College is addressing issues of
access, academic achievement, and retention. Under Capacity Building,
we are actively working to develop new degree programs, improve
learning environments, and renovate facilities. Each of these play an
important role in providing Navajo and Indian students' access to and
success in higher education. With the Higher Education Act (HEA)
reauthorization slated for this year, the College respectfully submits
it views and recommendations.
Remedial Education
    Remedial Education is a term describing a sequence of courses
designed to bring underprepared students to the level of skills
expected of new college freshmen. While colleges vary in their
practices; the common approach is to prepare a student for college-
level study through coursework to develop effective academic writing,
reading and math skills as required in many university classes. These
are skills generally taught in high school. Thus, remedial education
offers a second chance for students to acquire specified knowledge and
skills for academic success. Remedial Education is a national issue;
however, it is especially problematic in Indian Country.
    According to Dine College data, 85 percent (a five year average) of
entering Navajo college students are enrolled in remedial education
coursework for reading, writing, and math. Although there is no
concrete tracking data on a particular incoming class, it is likely the
graduation rates of a particular class is similar to national research
findings in that students requiring remedial education are less likely
to graduate, guaranteeing that the placement of students in remedial
coursework acts as a gatekeeper to their completion of a degree.
Further, the Navajo Nation funded students in remedial courses have
cost from $903,250 in 2011 to $2,068,500 in 2009 for 18,571 remedial
courses in Math and English.
    Recently, Secretary Arne Duncan, in his address to the State Higher
Education Executive Officers' Higher Education Policy Conference, noted
that ``(S)tates are taking on the challenges of boosting college and
career readiness by reforming and reducing the need for remedial
instruction.'' Likewise, at an on April 5, 2012, Dine College hosted
the Navajo Nation Roundtable on Remedial Education, for the purpose of
assessing the impact on Navajo students of remedial education in Higher
Education and to explore new solutions and policies. Those attending
represented a broad cross-section of educational institutions within
and outside the Navajo Nation including major state universities and
public schools districts in New Mexico and Arizona, Bureau of Indian
Education, Navajo Department of Education, Navajo Nation Board of
Education, and both public and tribal school boards.
    A number of recommendations came out of the roundtable. Dine
College has made progress in developing and implementing a number of
them--a summer remediation program, strengthen partnerships with K-12
schools, revising placement testing criteria, and establishment of a
dual credit program. Each of these are important steps, but more can be
done to address Remedial Education in Indian Country.
Recommendation
    One important recommendation stemming from the Navajo Nation
Remedial Education Roundtable is the need for reliable data and
research. While Tribal College and Universities (TCUs) are addressing
Remedial Education locally, very little research and reliable data
exists with respect to Remedial Education and American Indian Students
on a national level. Through the HEA reauthorization, the U.S.
Department of Education's Office of Post-Secondary Education, in
collaboration with TCUs, should be charged with developing a research
question and funding a study to identify issues and best practices to
address Remedial Education in Indian Country.
Dual Credit Program
    As a way to increase access to higher education, and in part,
address remedial education issues, Dine College established its Dual
Credit Program in 2013. Through the program, high school students can
get a jump start on college by earning college credits while still
attending high school. Dual credit is a process by which a high school
junior or senior enrolls in a Dine College course and receives
concurrent academic credit for the course from both the college and the
high school. The dual credit courses are taught on a Dine College
campus or on the high school campus only. Dine College offers dual
credit opportunities for all the courses listed in our catalog. To
date, the dual credit program has had 38 students complete 190 college
credit hours.
    To ensure student success, as part of the College dual credit
program, we provide on-going academic support and monitoring through
our Dual Credit Coordinator, an assigned counselor, and on-site
tutoring. Upon high school graduation, students can continue taking
classes at Dine College and work toward a certificate or degree. Dual
credit coursework is counted toward a Dine College degree and can be
transferred to different colleges or universities. Over the last year,
the College has entered into 17 Dual Credit Agreements with local high
schools and school districts.
    On the New Mexico state level, the New Mexico TCUs successfully
secured $100,000 in funding from the State of New Mexico to support
dual credit programs at New Mexico TCUs. This $100,000 does not cover
all the costs of tuition and fees associated with the New Mexico TCU
dual credit enrollment. For the 2014-2015 academic year, the New Mexico
TCUs secured $200,000 for their dual credit programs. The TCUs
anticipates that this funding will again fall short to cover the cost
of dual credit enrollment.
    At the Arizona state level, Dine College is seeking legislation to
provide support for to expand its dual credit program. It is important
to note here that 72 percent of Navajo high school students on the
Navajo Reservation in Arizona attend state public schools. At the
Navajo Nation level, the College is leveraging existing scholarship
funds to also support tuition and fees for dual credit students. Dine
College is keenly aware that diverting this funding places the Navajo
Nation Office of Scholarship and Financial Assistance (ONNSFA) in a
difficult position. In 2013, ONNSFA received 14,605 scholarship
applications but it was only able to fund 5,527 students.
Recommendation
    Through the HEA reauthorization, create and authorize funding for
Dual Credit Programs at TCUs to be administered by the Bureau of Indian
Affairs or Bureau of Indian Education.
Construction and Facilities
    Through the Navajo Community College Assistance Act of 1978 (P.L.
Pub. L. 95-471; hereinafter ``1978 NCC Act''), Congress provided for a
facilities study to be completed by the Department of the Interior by
August 1978. The 1978 Facility Study was never completed and funding
for Dine College construction and facilities was never appropriated. In
the 2008, Congress enacted the Navajo Nation Higher Education Act and
directed the Department of the Interior complete a Facilities Study by
October 31, 2010. The study was not completed. Additionally, when
Congress enacted the 1978 NCC Act, it provided for a $2,000,000 annual
construction grant be made to the College.
    Over the last three years, the College has been working to ensure
the Bureau of Indian Affairs (BIA) completes the 1978 Congressionally-
mandated facility study. The College previously submitted the
prerequisite inventory in 1979, 1988 and 1996, yet the BIA took no
action. Last fall, the College again submitted a new inventory. In
April 2014, the College met with the BIA Navajo Region Office and we
were able to come to a consensus on the need to complete the study and
to develop an action plan with a timeline. Additionally, I have
personally briefed Interior Secretary Sally Jewell and Assistant
Secretary Kevin Washburn on the issue. Once the facility study is
completed and submitted to Congress, the College will begin advocating
for construction funding authorized by the 1978 Act. We request the
Committee's support in ensuring the completion of the College's
facility study.
Recommendation
    Amend the Navajo Nation Higher Education Act to renew the deadline
to October 30, 2015 and provide the Department of the Interior
direction to complete the Facilities Study through Committee report
language.
Title III--Part A--Strengthening Tribally-Controlled Colleges and
        Universities
    In 2009, Dine College conducted a comprehensive assessment of three
areas: the skill level of new students, the academic progress of
current and former students, and the gap and weaknesses in the academic
program. The study concluded Dine College students: (1) enter with
significant academic deficiencies and non-academic needs; (2)
experience a significantly high failure rate in the pre-college level
reading, writing, and math sequences; (3) lack understanding of
academic or degree planning; (4) lack test taking and study strategies;
and (5) did not understand the concept of transfer or even which course
will transfer to four-year institutions. The study also provided the
College with data that 88 percent of our student are first generation
college students. Using the research finding and data, the College
submitted a Title III grant proposal to address these issues.
    In October 2010, Dine College was awarded its Title III grant. The
at Dine College Title III Program focus areas are: (1) Academic
Placement and Support; (2) Student Engagement; (3) Educational Goal-
Setting and Intervention, and (4) Improved Instruction and Curriculum.
Under these focus areas, the College has successfully reorganized its
Student Success Division and has greatly improved student services in
all these areas. At the end of the Spring 2013 semester, the Title III
personnel reported to have assisted 1,467 students overall. As a next
step, the Student Success Division is now developing an institution-
wide advising system with goal of implementing it by Spring 2015.
    I would also like to highlight that the Title III grant funded the
planning and delivery of the college's Summer Institute Program at the
Tsaile Campus. The Summer Institute is a two week residential summer
bridge program designed to help first time freshman students engage in
rich academic and social experiences and to gain understanding of
transitioning to college and learn about what to expect in college.
Another important success is that the Title II program built two new
Student Success Centers at the College's Tsaile, AZ and Shiprock, NM
campuses. The Student Success Center is a central location for student
support services. Title III funding has played an important role in
building Dine College's student services capacity.
Recommendation
    Through the HEA reauthorization, authorize Title III funds to be
used for (1) establishing and operating Dual Credit Programs, including
instruction and capacity building; (2) developing and offering College
Readiness and Transition programs, including personnel and student
expenses; (3) developing and operating Admissions Office capacity,
including personnel and training.
Forward Funding of BIA Higher Education Program
    Since 1983, the Navajo Nation has administered its own scholarship
program through a P.L. 93-638 contract. The Office of Navajo Nation
Scholarship and Financial Assistance (ONNSFA) awards approximately $12
million in Federally funded college scholarships a year. Additionally,
the Navajo Nation commits $7.2 million of its own revenues and income
from tribal trust funds to college scholarships. An additional $1
million is secured in corporate and private donations. The ONNSFA funds
over 5,000 undergraduate and approximately 500 graduate students
annually.
    All too often, Navajo students arrive on college campuses with
little or no money. This is particularly problematic for Navajo college
students who depend on these scholarship funds to pay for tuition,
books, and room and board. It can take days or even weeks for
scholarship funds to be distributed to the students. In the meantime,
they are required to buy books and other supplies and pay living
expenses for themselves and, often, their children. Given the economic
situation in their home communities, most students receive little
assistance from their extended families. In addition, the rural and
undeveloped economy of the Navajo Reservation provides few wage-labor
opportunities for students. As more and more Navajo and other Native
American students seek a college education, forward funding of the BIA
Higher Education program would allow the Navajo Nation and other Indian
tribes to disburse scholarship funds in a timely manner.
    There is precedent for forward funding of Federal Indian education
programs. Currently, the Bureau of Indian Education funded schools
(including P.L. 93-638 and P.L. 100-297 schools (25 U.S.C.  2010),
Tribally Controlled Colleges and Universities, (25 U.S.C. 1810) are all
forward funded. For the Navajo Nation and Indian Country, forward
funding has proven to be beneficial to all education stakeholders:
Indian Tribes, Bureau of Indian Education funded schools, public school
districts, Tribally Controlled Colleges and Universities, and Federal
Agencies. Most important, forward funding is in the best interest of
Indian students at all levels.
Recommendation
    Through the HEA reauthorization, included authorization to forward
fund the BIA Higher Education Program. See existing language in in
Senator Tom Udall's bill S. 1131, Building upon Unique Indian Learning
and Development Act.
Support for Our Sister Institutions and Adult Literacy Legislation
    Dine College supports the forward funding of our sister
institutions, Southwest Indian Polytechnic Institute, the Institute of
American Indian Arts, Navajo Technical College and United Tribes
Technical College. Authorizing language to accomplish this is found in
Senator Tom Udall's bill S. 1131, Building upon Unique Indian Learning
and Development Act. We also support passage of the Senator Mazie K.
Hirono's S.1998 Native Adult Education and Literacy Act of 2014. The
bill provides funding for General Education Diploma and Adult Education
programs. We strongly urge the Committee to work to include these in
the HEA reauthorization.
Conclusion
    Dine College provides a unique opportunity for Navajo and Indian
students to succeed in an educational setting that prepares them for
further studies, opens up employment possibilities, and incorporates
traditional Navajo cultural values and learning styles. Since the 1868
treaty between the United States and the Navajo People, education has
been stressed to our people. Dine College and the tribal college
movement is an outgrowth of this. The Navajo Nation and people are very
proud of the foundations and opportunities that Dine College has
provided over the last 45 years. I invite each member of the committee
to visit our College and see firsthand our success and challenges.
                                 ______

Prepared Statement of Lisa Short Bull Gerth, Graduate Student, Montana
                            State University
    Good morning. I am sending you this letter to give testimony
concerning issues I have encountered while trying to obtain my MA
degree. I will begin with the history of when I received my bachelor's
degree while attending the University of South Dakota in Vermillion,
South Dakota. My major was English with an emphasis in creative
writing. My minor was in Indian Studies. While I was taking courses for
my minor in Indian Studies, I realized that with the courses I was
studying, I was essentially wasting my time because I didn't know what
I could do with that. I talked to the former director of Native
American Studies at the time, Dr. Leonard Brugier. I told him about my
frustrations and asked if in his position he was able to help create a
bachelor's in Native American studies. I said, I would need to finish
my program in English but this kind of program was necessary because
just having a minor was useless and you needed to have bachelor's
degree in order to put Indian studies classes to use. Eventually
Leonard was able to make this happen.
    When I graduated from USD in 1994 I did various jobs. My most
important use of my English degree and Indian studies minor was writing
a proposal to perform Native American Cultural training for upper level
management of the Army Corp of Engineers. The corp was so impressed
with the training that I created, they gave the company I wrote the
proposal for a three year contract and I was the company's program
manager for three years. I worked with tribes around the country.
    This job only deepened my passion to learn about Native American
tribes. When our contract ended in 2009, it was at the peak of the
recession. It was difficult finding a job anywhere around South Dakota.
I decided to go back to school. I wanted a degree related to working
with Native Americans. What I discovered was my Alma Mater was having a
difficult time trying to keep the Indian Studies bachelor's program
alive. There was no Director of the program for Indian studies. Dr.
Edward Valandra was the last Director, and he quit his job apparently.
There were no instructors to teach the Indian Studies courses and they
were running ads to fill two positions for Instructors. I believe the
Dean of students was acting Director of the Indian Studies Department.
There was a large collection of Oral History recorded interviews that
were once housed in the basement of Dakota Hall but were moved to the
library of USD and the person hired to care for them was not required
to be Native American.
    An important note to mention is that when I was pursuing my
education at USD there were some strong contributing factors to my
success. There were several Native Americans who were working at USD.
Among them were Steven Whithorn, who worked in financial aid, that
position was later filled by Del Big Crow, and then Patty Wells Evans.
All three of these individuals are now deceased. Also Dr. Duane Mackey
who was in the counseling dept, I believe, Dr. John Williams, Drug and
alcohol abuse, and are both deceased. Dr. Robert Bunge was a professor
in Modern Languages and also deceased. Besides this group of
individuals there was Mr. Gene Thin Elk who is now the coordinator of
the Native American Cultural Center and Dr. Wayne Evans who was a
professor in Bilingual education, who is now retired. So I feel this is
the reason that there are so many needs to save the Indian Studies
dept. I called several people involved in saving this program and know
the story well. I don't understand when so many people were dying that
people at USD didn't have the foresight to remedy what was happening
and maybe that had to do with funding. At the time, the two positions
for Instructors have been filled to begin the fall 2014 term. At this
time, there is no master's in Native American Studies offered at USD.
    In my efforts to find a University in South Dakota, I called SDSU
in Brookings, S.D. There was a story in the newspaper saying that they
were going to start their first ever Native American Studies program
there. It was going to be started under the new hire of Director of
Ritchie Meyer. I talked to him on the phone. He said at that time, he
was working with Sinte Gleska University on a program to save the
Lakota Language. I asked if he would continue that throughout the
school year and he said yes. I asked what he had planned for the new
Indian Studies program and he said, ``I'm not exactly sure, they
literally just told me to get it started.'' My thoughts were, how can
someone be involved in a large language program and try to start
something as major as a whole new Indian Studies program that needed a
focus and direction and not have any plans for it. I talked to him at
the end of the semester and he said the school year went very well. He
also said that he just got a grant and was studying Indian Studies
programs to see what was successful. He forgot I made that suggestion
to him before I left South Dakota in 2013 to begin my Master's in
Native American studies. As long as it's being done, I suppose, and
someone cares. I told him that I would put him in touch with Dr. Walter
Fleming the Chair of the Native American Studies Department.
    I also asked him if there would be any chance of a job when I
graduate from MSU and he said probably not at this time. He said they
had a very low budget and needed to use grad students to teach the
courses. My theory is a newly graduated MA who taught for one whole
year would have better qualifications to teach Indian studies course,
but again, this is probably due to budget constraints. Mr. Meyers was
saying that he was aware that they hired two new people to teach the
Indian Studies courses at USD. He said, currently Gene Thin Elk was the
only person teaching cultural studies at USD. I said, ``Well that is
all well in good that USD is doing something, but for your information,
the graduate program here at USD doesn't even have a cultural
component.'' So all the stuff the students are getting there will not
be of use if those students decide to pursue the MA. Some of it may
help as far as understanding Native Americans but MSU focuses on Fedral
Law and Indian Policy, theories and methods of Native studies, history,
and literature. What Mr. Thin Elk teaches might help a student write a
paper or two but would not give them a solid foundation to build on
like a strong well designed BA curriculum would.
    Black Hills State has a bachelor's in Indian Studies but I have not
contacted them. At the time I was trying to make my choice for a
University I was living in Aberdeen and wanted to stay East River. It
didn't take me long before I realized that if I wanted a quality
education in Native American Studies, I would have to move. So I
started to explore my options via the Internet. I had been previously
in touch with MSU in 2009 and the peaked my interest at that time. I
gave them a call. It took some time to get my ducks in a row, but I did
and am currently a student here. One of the most fascinating things I
encountered to help with my success not only as a student but in life,
was being given an opportunity to teach. I taught the Intro to Native
American Indian Studies course to 50 students. It was remarkable to see
that many students having to take my class as a requirement for their
program. This was due to the tremendously successful program called
``Indian Education for All.'' This program is so amazing. Coming from
South Dakota our history of race related issues are no secret. During
the recession, to keep myself going, I hired myself out to do Native
American Cultural sensitivity training. I trained the Rapid City and
the Aberdeen, Police Departments, the Black Hills National Forest, SD
Game, Fish and Parks and Aberdeen Central H.S.
    I do this because I firmly believe that education is the way to
combat ignorance that leads to racism. As an educator I saw for myself
where students came into the start of the semester talking about their
parents being racist and they themselves knowing nothing about Native
Americans. At the end of the semester, these students were talking
about compassion for people they never knew and how honored it was to
see us as the people we are with a beautiful culture. Many said that
they would teach what they learned from me to their children. I don't
do the work I do to become rich or famous. I do it because I think back
to some of my own experiences growing up in SD. I think of thinks like
it takes a village to raise a child. I spent only about 5 years of my
life on the Rosebud Reservation. I started my education in the Rapid
City School System. When I moved to Rosebud and started 6th grade I was
so far above my peers, I found education to be somewhat boring. My
teachers knew what the problem was for me and would always give me
extra things to do to keep me busy.
    Then after my father died, my mother relocated to Aberdeen, S.D. I
believe in the saying it takes a village to raise a child which is
another reason why I am writing this letter. I am thinking of all the
young Jr. and Sr. High school students in South Dakota and anywhere in
the United States who may not know how to pursue the goals I made for
myself. Or back in South Dakota may not have the chance to get a
quality education because of the budget cuts. I talked to Secretary
J.R. LaPlante who works for the Govenor's office. I was telling him
that South Dakota needs to adopt a model like the Indian Education for
All. He talked about the fact that it would get hard to people to
listen to me in South Dakota because the Indian Education for all made
the state Spend money not make money. I'm not a math major but I do
know if there are 4 sections being taught of Intro to Native American
Studies, each section has 50 students, each student pays $1,000 for
this class that makes $800,000.00/per year for the University. Every
University, and is funded by the board of Regents, who collects money
for the state. Don't they? How is this a costly program? La Plante also
mentioned that it was a Republican/Democrat issue. How about making
this an issue that does not focus on the needs of constituents but
focuses instead on the needs of young adults who need to earn a living.
How about building self-esteem in people who come from South Dakota
towns that have been compared to third world countries such as Rosebud
and Pine Ridge and all of their districts, or Cheyenne River, or
Sisseton? I myself am tired of being at the bottom and what to get a
better world-view from the top. That's why I am pursuing an MA in NAS.
When I was working in jobs where I could see for myself the social ills
affecting Native people is what easier to understand what their needs
are.
    As a former English major I was a reporter for newspapers. I also
was a case manager in Hardin Montana. I was affiliated with the HRDC
office there. We helped people, mostly Native Americans from the Crow
Agency, learned how to fill out job applications and do mock interviews
so they could get jobs. Many of the young people had started their
families before they even left high school and many of these people
were close to illiterate. So, while I was the reporter I would read
story after story of the government concerned about the high drop- out
rates of Native Americans, the high number of pregnancy among Native
American women, the low birth rate, etc. We all know the problems. What
better way to address the problems by creating successful education
programs for them. The government has a concern for these people up
until the age of 18. Some of the people don't have anybody concerned
about their success in high school at home. So when they turn 18, they
have no one. Maybe that is part of the reason for the high suicide
rates. These young Native people see what happens to their older
siblings. If you have successful programs that guide you all the way
through more young people might consider. Here is an example of what I
think could be a successful program:
    If one of the reasons South Dakota might be reluctant to adopt a
model like Indian Education for all is shortage of funds, there is no
reason why the government can't fund the BIE and have the BIE be a
sponsor of the program. I have talked to Walter Fleming to see if he
may want to do some collaborative work with Universities and tribal
colleges in South Dakota and I believe he has. Traditionally it takes
about 6 years to complete a BA and an MA degree. It would be a nice
incentive if there was collaborative work where it only took 5 years.
You could (A) Start College in SD earning credits for a BA for two
years, you could gain valuable credits taking classes at a Tribal
college for two years then (B) transfer to MSU and complete A Master's
in one year. This is just one example of how this might work.
    Possible (C) Option: Dr. Walter Fleming also has been working to
start a PHD program here at MSU. If BIE gets involved in helping create
this program, there would more students interested in participating,
and those numbers would be used to justify starting one. We want to
give students something to strive for. At this time, I believe there
are only two Universities in this whole country that offer American
Indian Studies programs.
    Or if this program still needed to be the traditional 6 yrs, at
least you have guidance and support from day one of a Bachelor's
possible all the way to a doctorate. Many places have fellowships such
as the US Fish and Wildlife who guarantee you jobs with them if you are
a fit for them during the fellowship. With a largely supported program
that is turning out high numbers of grad students every year more
federal agencies will create fellowships.
    So, not only building self-esteem, and giving students achieve-able
goals to obtain, here is another reason to support this program. What
do we go to college for? To be able to get jobs. What is needed to help
an economy in a recession? The creating jobs. At the time all federal
agencies are using Tribal Liaisons. You need to have college
experience, usually at the Master's level to do these jobs. Have you
been following this letter? Those programs are struggling. With the
exception of MSU who does have a high success rate of graduates. But
there are many opportunities in which we as NAS majors can thrive once
we graduate.
    How about creating a call center, where Native Americans can take
calls from Native Americans who want to complain about their experience
with an Indian Health Hospital as a way for the government to maintain
quality control. Or how about Tribes owning and operating a facility
that fills the orders of lung drainage units and other medical supplies
so tribes benefit instead of spending their money outside of the tribe.
This helps economic development for the tribes. Maybe it will save the
government money in the long run. It will certainly help monitor the
use of money earmarked for health care. This money goes to tribes
instead of the government having to reimburse other people who contract
with IHS hospitals.
    I am also writing this story because in order to pursue my
educational goals, I had to leave my state and my home. I put
everything in storage because South Dakota doesn't have a program like
the one I needed. But why not? We have 7 reservations in South Dakota,
why don't we have heavily supported Native American studies programs.
Look at all the people, not Native American who are archeologists or
Anthropologists who have jobs. And they have a bad reputation with some
folks. Well, give us the money, let us research ourselves and tell our
own stories by giving us the funds to make our own programs.
    In conclusion, there are so many benefits for the government and
BIE to become better at improving the quality of education that Native
Americans receive. South Dakota is so long overdue in making a major
change, and one of support, for Native American Tribal colleges, and
for Indian Studies programs in South Dakota Universities. In my
opinion, separation of Church and State is somewhat understandable,
Separation of Native Americans and State is unforgiveable. Adopting a
model like Indian Education for all would demonstrate the desire to
make good the reconciliation efforts of former Gov. George Mickleson If
it will take extra funding from the government to make this happen, it
is my desperate plea that you open the doors of opportunities for
future Native American students and get behind the State of South
Dakota and all its universities, Tribal Colleges, and Montana State
University in their efforts.
                                 ______

     Response to Written Questions Submitted by Hon. Tom Udall to
                           Cheryl Crazy Bull
    Question 1. Your remarks are compelling about how to make higher
education more affordable for Native American and Alaska Native college
students. I understand that only three TCUs participate in the federal
student loan program: Fond du Lac Tribal and Community College
(Minnesota), Salish Kootenai College (Montana), and United Tribes
Technical College (North Dakota). Why do so few TCUs participate in the
federal student loan program?
    Answer. The nation's tribal colleges and universities, which
collectively are the American Indian Higher Education Consortium
(AIHEC), stated in a press release issued July 17, 2014 that more than
75 percent of students enrolled at TCUs are Pell Grant recipients. The
very real threat of losing Pell Grant eligibility, which the majority
of their students depend upon, is the major reason that most TCUs do
not participate in the federal student loan program. And it's not just
TCUs. According to the Institute of College Access & Success, 20.1
percent of Native American community college students are enrolled in
non-participating institutions.
    However, speaking with regard to Tribal College non-participation,
many TCUs choose not to participate because they are concerned that
when too many student borrowers default on their federal student loans,
the schools can be sanctioned and could face the possibility of losing
the ability to offer Pell Grants to their students. This potential loss
of Pell Grant eligibility for current and future students (based on the
lack of loan repayment by a small fraction of former students) impacts
the Tribal Colleges' decisions on participation in the federal loan
program. This is an even greater concern for smaller institutions,
which could have only a handful of loan recipients but where the
majority are Pell Grant recipients. Tribal Colleges feel that it is
imperative that they work to preserve a major source of the majority of
their students' financial aid.
    In addition, federal student loan programs are even less attractive
in 2014 as concerns about cohort default rates (CDRs) have been
heightened amongst higher education institutions because this is the
first year that sanctions will be imposed in colleges based on three-
year rather than two-year time periods.
    Tribal Colleges do not want to risk losing Pell Grant eligibility
for their students because the Tribal Colleges themselves rely upon
Pell dollars to cover their costs, since they are underfunded.
Therefore, until federal policy is changed to decouple the student loan
program and Pell Grant eligibility, most Tribal Colleges will opt not
to participate in loan programs because the risk of losing Pell Grant
eligibility for thousands of American Indian students who rely upon
Pell Grants is just too great.
    A partial solution would be to offer year-round Pell Grants to
promote Native student access to education. Year-round Pell Grants
would promote access to higher education for the most underserved group
of students in the nation. Native Americans have the lowest college
enrollment and degree-attainment rates in the country, as noted in June
2014 testimony, which can be attributed to high rates of poverty. Year-
round Pell Grants would also provide a boost in students' persistence
to complete their degrees because funding would be uninterrupted.
Offering year-round Pell Grants would also support the goal of helping
strengthen graduation rates. Students who have to stop out for
financial reasons often find jobs and then decide not to return to
college. Finding a job may solve a student's short-term financial
problems, but without a degree, they are limited with regard to future
earning potential. In addition, individuals lacking degrees impact both
their community's and America's competitiveness and economic health.
    Extending the Pell Grant program year-round would help both full-
time and part-time students who are not on a traditional schedule.
Because many Native students work and attend school part-time, a year-
round Pell Grant program would help increase their access to a higher
education.
    The American Indian College Fund acknowledges that Pell Grants
alone are not enough to meet their students' financial needs. Pell
Grants only cover a portion of the cost of attending a Tribal College
(the average cost of attendance for academic year 2013-2014, including
books and board, was $14,168, contrasted with the average income of a
first-time entering TCU student of $15,262, according to AIHEC). To
prevent Tribal College students from borrowing from private, more
expensive loan sources to fill the gap, the schools instead choose to
make higher education affordable and accessible by charging very low
tuition rates, writing off an average of $100,000 in tuition costs
annually, and providing comprehensive support systems.
    In essence Tribal Colleges, which are open enrollment, public
institutions that provide access to high quality postsecondary
education opportunities to both Native American and non-Native
reservation residents, choose to do more with less so that their
students can financially access a higher education. They spend less and
achieve more so their students do not have to face the financial burden
of repaying student loans after school.
    It's not just Tribal College students that face the dilemma
attendant with federal student loans and Pell Grants. According to a
report titled ``At What Cost? How Community Colleges That Do Not Offer
Federal Student Loans Put Students at Risk'' authored by the Institute
for College Access and Success, nearly one million community college
students in 30 states--or 8.5. percent of community college students
nationally--are enrolled in schools that blocked all of their students'
access to federal student loans. And access to federal student loans
varies considerably by race and ethnicity. Native American, African
America, and Latino students attending community colleges are the most
likely to lack access.
    Finally, there is a definite bias with regard to access to federal
loans in rural areas. According to the report, community college
students in non-urban areas (where Tribal Colleges are located) are
more than twice as likely to lack access to federal loans as their
peers who attended community colleges in urban areas. Students
attending a community college in a non-rural area comprise one-fourth
of all community college students, according to the report. Again, the
link may be an economic issue: schools who serve large populations of
students who are Pell Grant recipients may be reluctant to risk losing
the primary financial source that provides their students with
financial access, while also risking the dollars the institutions rely
upon for operation.

    Question 1a. What would you recommend for Native students at TCUs
to have greater access to federal student loan and scholarship
programs?
    Answer. Rather than implementing federal student loan programs at
Tribal Colleges that current federal regulations could cause schools to
risk losing access to the Pell Grant program which serve such a large
number of Native students, the American Indian College Fund joins AIHEC
to recommend that Congress adopt a plan for equity in federal funding
for the TCUs.
    Although Congress designated Tribal Colleges as land-grant
institutions in 1994, they receive only $4.4 million in federal monies
compared to $300 million for state schools and $43.9 million for
historically Black colleges and universities (HBCUs). Inequity in
research funding is even greater, with $1.8 million being afforded to
TCUs compared to $243.7 million to state schools and $52.5 million to
HBCUs.
    Enrollment at Tribal Colleges has grown by 23 percent over the past
five years as more Native American students see a higher education as a
path to self-subsistence and a better life. A growing future Native
student population combined with the current need gap means the need
for financial assistance will only increase. (Source: AIHEC). The
American Indian College Fund believes a combination of year-round Pell
Grants, additional federal funding for tribal colleges, programmatic
support for the TCUs, and scholarships for Native students is the way
to meet that growing need. Unmet need will only result in fewer
students and lost opportunities for the neediest of Native people to
become self-sufficient and provide better lives for themselves, their
families, and their communities.
    The American Indian College Fund, for its part, is working to raise
funds from individual, corporate, and foundation entities to provide a
greater number of scholarship programs for Native students as part of
its 25th anniversary fundraising initiative, as stated in testimony.
Summary Recommendations
    To meet current unmet and projected future student need for
financial aid as more Native American students see a higher education
as a path to a better life, while helping to eliminate the current
economic and educational disparity in Native communities, the American
Indian College Fund advocates a two-prong approach to Pell Grant and
federal student loan issues.
    First, until federal policy is changed, the College Fund recommends
the decoupling of the student loan program and institutional Pell Grant
eligibility, as most Tribal Colleges will opt not to participate in
loan programs because the risk of losing Pell Grant eligibility for
thousands of American Indian students who rely upon Pell Grants to earn
their educations is just too great for the reasons stated throughout
this document.
    Second, the American Indian College Fund advocates offering year-
round Pell Grants to promote Native student access to education. Year-
round Pell Grants would promote access to higher education for the most
underserved group of students in the nation. Native Americans have the
lowest college enrollment and degree-attainment rates in the country,
which can be attributed to high rates of poverty, as noted.
                                 ______

     Response to Written Questions Submitted by Hon. Tom Udall to
                          Thomas ``Les'' Purce


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 ______

     Response to Written Questions Submitted by Hon. Jon Tester to
                            Jamienne Studley

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     Response to Written Questions Submitted by Hon. Tom Udall to
                            Jamienne Studley

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 ______

     Response to Written Questions Submitted by Hon. Tom Udall to
                             Billie Jo Kipp
    American Indian communities are generally located on Indian
reservations geographically isolated and culturally distinct. Most
educators and other school personnel may not commit to tribal education
as a long-term career. Lack of an investment in personnel hurts the
curriculum and pedagogy, contributing even further to students'
disconnecting from the educational system.

    Question 1. If we are not ``growing our own'' teachers and
principals, school districts need to recruit school personnel from much
further away. How can do we increase the number of skilled educators
who see tribal education as a lifelong career, and not just a step to a
non-tribal school district?

    Question 1a. What incentives are there for highly qualified
teachers to commit to high need, high poverty and tribal schools? What
else is needed?
    Answer. Currently the difficulties for Tribal Colleges is having
the ability to provide 4 year degrees to tribal and community members
who do not want to leave the reservation, but want to pursue a higher
teaching degree. Developing hybrid courses, 2 +2 opportunities, and
distance education programs from collaborating universities will
increase the numbers of qualified educators. Funding in this area has
to reflect a commitment to growing our own, currently Blackfeet
Community Colleges engages in these activities, but we incur all costs
without out funding. Additionally, outside professionals who work in
disadvantaged areas are given loan forgiveness opportunities, while the
opportunities for these programs for local native professionals are not
equitable. An examination of the loan forgiveness program for allowing
local Native Americans who are educated in the tribal college system to
be eligible for this benefit is warranted.
    BCC has engaged in unique behavioral health aide programming, we
have worked with the local school district to improve the skill level
of Native American teacher aides, which has resulted in improved skills
sets and possible salary raises for teacher aides who further their
education in this program. This is developing and addressing a need for
the school district and improving the quality of teacher aides, which
have historically been in the school district for years.
Paraprofessional educational opportunities have to be supported
financially as an intervention for improved services to tribal
communities.

    Question 2. TCUs have a unique role as primary training campuses
for preparing teachers and administrators for both Indian educators and
non-Indians working with Native American learners.What else can we do
to increase the pipeline for Native Americans and Alaska Natives to
pursue and excel as teachers and administrative leaders?
    Answer. Tribal colleges are in remote areas, providing and
financially supporting more hybrid and distance education programs in
all areas, BA, MA, and Ph.D., is definitely needed. The funding levels
of these programs are often funded by the tribal college without
financial support, but because tribal college's commitment to improved
education for native people is a mission, we attempt to offer
programming without compensation which impacts an already stressed
budget.

    One important aspect of lowering unemployment and strengthening the
economy is improving the partnerships among Business (who know what
skills their workers need), Training Programs (e.g., community
colleges, who could prepare workers with these skills) and the
potential workforce (to gain these skills for available jobs).

    Question 3. Congress is working on reauthorizing the Workforce
Improvement Act. Could you describe the role of tribal colleges and
universities in being part of the network of training the un- and
underemployed and working with the business community to identify
needed workers and skill sets?

    Question 3a. To what extent have tribal colleges made themselves
eligible entities for WIA training funds?

    Question 3b. How do TCUs work with their tribal governments and
regional employers to identify business and job opportunities which the
TCUs would help prepare a skilled workforce?
    Answer. Tribal colleges often respond to on demand training
programs for the local workforce. Tribal councils and tribal workforce
programs will identify needed training and the tribal colleges will
respond to provide training to eventually improve the local economy by
addressing workforce development opportunities. Workforce development
has been a critical function of tribal colleges. For BCC, we have a
Career Center with distance capabilities and networking with the
tribal, state, and federal job recruitment opportunities.
    WIA is a Blackfeet Manpower One Stop funding trajectory. When the
tribe is the primary applicant for funding the tribal college does not
compete with tribal applications. Increasing tribal college specific
funding in these areas would improve the ability to respond to
workforce needs.

    Question 4. Too many students are entering college, including
tribal colleges and universities, unable to do college level work. This
increases the need for remedial courses in college, and delays the time
students need to earn their college degrees. What should the federal
government and tribal governments do to reduce the need for college
remediation so that incoming students are able to do college-level
work?
    Answer. College prepared students attending colleges across the
United States is at an overall low. This is impacting the educational
system of the nation, including tribal colleges. At BCC, we are
attempting to engage in more dual credit opportunities for high school
students. Additionally, we are offering summer courses for high school
students in developmental education courses. Again, the cost of this
programming is not supported by funding and we are incurring those
costs. Novel, unique, local programming such as these need to be
investigated for improved outcomes. However, funding is limited and
research funding for unique educational models is difficult for tribal
colleges to attain as we are often competing with the university
systems. Research funding specifically for tribal colleges in
addressing the educational needs of their reservations could provide
unique educational interventions and promising best practices.

                                  <all>
</pre></body></html>
